<html>
<title> - H.R. 3802, H.R. 4870, H.R. 4917, H.R. 4919 and H.R. 4952</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
       H.R. 3802, H.R. 4870, H.R. 4917, H.R. 4919 and H.R. 4952

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             June 20, 2002

                               __________

                           Serial No. 107-132

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 ______

80-292              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
John E. Peterson, Pennsylvania,      Tom Udall, New Mexico
  Vice Chairman                      Mark Udall, Colorado
Mark E. Souder, Indiana              Rush D. Holt, New Jersey
Michael K. Simpson, Idaho            Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
                                 ------                                


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 20, 2002....................................     1

Statement of Members:
    Gallegly, Hon. Elton, a Representative in Congress from the 
      State of California, Prepared statement on H.R. 4917.......    35
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     2
        Prepared statement on H.R. 4870..........................     3
    Hayworth, Hon. J.D., a Representative in Congress from the 
      State of Arizona...........................................    25
        Prepared statement on H.R. 3802..........................    26
        Prepared statement on H.R. 4919..........................    31
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado, Prepared statement of...................     2
    Peterson, Hon. John, a Representative in Congress from the 
      State of Pennsylvania......................................     7
        Prepared statement on H.R. 4952..........................     9

Statement of Witnesses:
    Baliunas, Dr. Sallie, Deputy Director, Director of Science 
      Programs, Mount Wilson Institute...........................    13
        Prepared statement on H.R. 4952..........................    15
    Ferguson, Jerrell, Diamond Point Summer Homes Association....    33
        Prepared statement on H.R. 4919..........................    33
    Huntress, Dr. Wesley T., Jr., Director, Geophysical 
      Laboratory, Carnegie Institution of Washington.............    11
        Prepared statement on H.R. 4952..........................    12
    Thompson, Tom L., Deputy Chief, National Forest System, 
      Forest Service, U.S. Department of Agriculture, Oral 
      statement on H.R. 3802.....................................    27
        Oral statement on H.R. 4870..............................     4
        Oral statement on H.R. 4917..............................    37
        Oral statement on H.R. 4919..............................    32
        Oral statement on H.R. 4952..............................    10
        Prepared statement on H.R. 3802, H.R. 4870, H.R. 4917, 
          H.R. 4919 and H.R. 4952................................     5


  LEGISLATIVE HEARING ON H.R. 4870, ``MOUNT NAOMI WILDERNESS BOUNDARY 
 ADJUSTMENT ACT''; H.R. 4952, ``MOUNT WILSON OBSERVATORY PRESERVATION 
AND ENHANCEMENT ACT''; H.R. 3802, TO AMEND THE EDUCATION LAND GRANT ACT 
      TO REQUIRE THE SECRETARY OF AGRICULTURE TO PAY THE COSTS OF 
ENVIRONMENTAL REVIEWS WITH RESPECT TO CONVEYANCES UNDER THAT ACT; H.R. 
 4919, ``TONTO AND COCONINO NATIONAL FORESTS LAND EXCHANGE ACT''; H.R. 
     4917, ``LOS PADRES NATIONAL FOREST LAND EXCHANGE ACT OF 2002''

                              ----------                              


                        Thursday, June 20, 2002

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 9:35 a.m., in 
room 1334, Longworth House Office Building, Hon. John E. 
Peterson presiding.
    Mr. Peterson. The Subcommittee on Forests and Forest Health 
will come to order.
    Under Committee rule 4(g), the Chairman and the Ranking 
Minority Member can make openings statements. If any other 
statements, they can be included in the hearing record under 
unanimous consent.
    Mr. Peterson. Representative McInnis, who normally Chairs 
this Committee, had to fly to Colorado to one of the major 
fires there. He flew out there this morning. We keep him in our 
thoughts and prayers as he enters that fire zone. We hope they 
can get them under control. We commend him for going back to 
his district at this time.
    I am Congressman Peterson, Vice Chair, filling in for him. 
I will share his statement first and then we will go on to the 
first bill.

 STATEMENT OF HON. SCOTT McINNIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Peterson. The Subcommittee is meeting today to hear 
testimony on five bills. The first bill, H.R. 4870, introduced 
by Chairman Hansen would adjust the boundary of the Mount Naomi 
Wilderness area to exclude roughly 31 acres that contain 
utility lines and other developments that aren't compatible 
with wilderness values and would add approximately 31 acres at 
the northern boundary to compensate for this exclusion.
    The second bill, H.R. 4852 introduced by myself would 
convey land containing the Mount Wilson Observatory in the 
Angeles National Forest in California to the Mount Wilson 
Institute. The Mount Wilson Institute currently operates the 
Mount Wilson Observatory on land that is leased from the Forest 
Service. When the land is transferred, the Mount Wilson 
Institute would assume the obligations of the Forest Service 
under the current lease.
    Third, H.R. 3802 proposed by Mr. Hayworth would amend the 
Educational Land Grant Act to require the Secretary of 
Agriculture to pay the cost of environmental reviews with 
respect to conveyances under that act.
    The fourth, H.R. 4919, again introduced by Mr. Hayworth, 
would direct the Secretary of Agriculture to perform two land 
exchanges in the Tonto and Coconino National Forests in 
Arizona.
    Finally, the fifth, H.R. 4917, introduced by Mr. Gallegly, 
would provide for an exchange of lands with the United Water 
Conservation District of Cal to eliminate private inholdings in 
the Los Padres National Forest and for other purposes.
    Mr. Peterson. Now, we will recognize Ms. McCollum on behalf 
of the minority for any opening comments.
    Ms. McCollum. No, thank you.
    Mr. Peterson. Thank you very much.
    Mr. Hansen was detained at another meeting. So, I will now 
begin the discussion on the first bill and share his testimony 
with you.

STATEMENT OF JAMES V. HANSEN, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF UTAH

    Mr. Peterson. Mount Naomi is located in the Wasatch-Cache 
National Forest near Logan, Utah. It is a beautiful area 
composed of approximately 44,523 acres, making it one of the 
largest wilderness areas in the State of Utah. It is host to 
many different families of both plants and animals and 
undoubtedly deserves wilderness protection.
    Mount Naomi was designated a wilderness area by the Utah 
Wilderness Act of 1984, which he sponsored. However, some 
complications have arisen because of the close proximity of the 
wilderness boundary to Logan city limits.
    Management and maintenance problems have been reported by 
the Forest Service in Logan City, within the southwest corner 
of the wilderness boundary. Living adjacent to Logan City 
limits is a utility corridor with sever lines, including power, 
communications and water lines. This utilities corridor existed 
prior to the designation of the wilderness area. Because no 
motorized or mechanized equipment is allowed to operate within 
the wilderness area, maintenance of these facilities is 
difficult, if not impossible, to conduct.
    A simple adjustment of the wilderness boundary would 
provide a common sense solution to both the utilities 
corridor's maintenance and the Forest Service management 
problems. The legislation would adjust the wilderness boundary 
to exclude the 31-acre parcel that houses the utilities 
corridor. The new boundary would follow the natural contour 
lines of Mount Naomi to compensate for this adjustment and 
prevent a net loss of wilderness.
    The Forest Service has identified a separate 31-acre parcel 
with wilderness characteristics located adjacent to the 
southern boundary of the wilderness area to be added. The 
adjustment would thus provide a manageable natural boundary for 
the wilderness area.
    This legislation has support from the local Forest Service, 
Logan City and Cash County and is the smallest area needed to 
accomplish this purpose.
    Additionally, a small portion of the Bonneville Shoreline 
Trail has been proposed within the 31 acres adjacent to the 
Logan City limits. This portion of the trail would connect with 
a number of other trails in the Bonneville Shoreline Trail 
system and provide outstanding recreational opportunities for 
thousands of people each year.
    When completed, the trail system will travel along the 
shoreline of the ancient Lake Bonneville, which stretched from 
northern Utah to southern Utah, near present-day Cedar City. 
This trail system has been incredibly popular for hikers, 
mountain biker and equestrian traffic. This is the only portion 
of this trail that lies within the wilderness area.
    This is good legislation, non-controversial. I urge all of 
the colleagues to support Mount Nebo Wilderness Boundary 
Adjustment Act.
    [The prepared statement of Mr. Hansen follows:]

    Statement of The Honorable James V. Hansen, a Representative in 
                    Congress from the State of Utah

    Mount Naomi is located in the Wasatch-Cache National Forest near 
Logan Utah. It is a beautiful area composed of approximately 44,523 
acres making it one of the largest wilderness areas in the state of 
Utah. It is host to many different families of both plants and animals, 
and undoubtedly deserves wilderness protection.
    Mount Naomi was designated a Wilderness Area by the Utah Wilderness 
Act of 1984, which I sponsored. However, some complications have arisen 
because of the close proximity of the wilderness boundary to Logan City 
limits. Management and maintenance problems have been reported by the 
Forest Service and Logan City. Within the southwest corner of the 
wilderness boundary, lying adjacent to Logan City limits, is a utility 
corridor with several lines, including power, communication, and water 
lines. This utility corridor existed prior to the designation of the 
wilderness area. Because no motorized or mechanized equipment is 
allowed to operate within the wilderness area, maintenance of these 
facilities is difficult, if not impossible, to conduct.
    A simple adjustment of the wilderness boundary would provide a 
common-sense solution to both the utility corridor's maintenance and 
the Forest Service's management problems. This legislation would adjust 
the wilderness boundary to exclude the 31-acre parcel that houses the 
utility corridor. The new boundary would follow the natural contour 
lines of Mount Naomi. To compensate for this adjustment, and prevent a 
net loss of wilderness, the Forest Service has identified a separate 
31-acre parcel with wilderness characteristics located adjacent to the 
southern boundary of the wilderness area to be added. The adjustment 
would thus provide a manageable, natural boundary for the wilderness 
area. This legislation has support from the local Forest Service, Logan 
City, and Cache County, and is the smallest area needed to accomplish 
this purpose.
    Additionally, a small portion of the Bonneville Shoreline Trail has 
been proposed within the 31 acre area adjacent to the Logan City 
limits. This portion of the trail would connect with a number of other 
trails in the Bonneville Shoreline Trail system, and provide 
outstanding recreational opportunities to thousands of people each 
year. When completed, the trail system will travel along the shoreline 
of the ancient Lake Bonneville, which stretched from northern Utah to 
southern Utah, near present-day Cedar City. This trail system has been 
incredibly popular for hikers, mountain bikers, and equestrian traffic. 
This is the only portion of this trail system that lies within the 
wilderness area.
    This is good legislation, and non-controversial. I urge all of my 
colleagues to support the Mount Naomi Wilderness Boundary Adjustment 
Act.
                                 ______
                                 
    Mr. Hansen. Good work, Mr. Chairman. I do appreciate it. 
Thank you so much.
    I had to give a speech this morning and I couldn't get out 
in time. Am I excused?
    Mr. Peterson. You are excused.
    Mr. Hansen. Thank you.
    Mr. Peterson. Now, we will introduce the witnesses for our 
first bill, for H.R. 4870, we had our Chairman of the 
Committee, Mr. Hansen.
    Next is Mr. Thompson, Deputy Chief, National Forest System. 
Mr. Thompson, we urge you to proceed.

  STATEMENT OF TOM L. THOMPSON, DEPUTY CHIEF, NATIONAL FOREST 
                             SYSTEM

    Mr. Thompson. Thank you, Mr. Chairman. Mr. Chairman and 
members of the Committee, I thank you for this opportunity to 
appear before you today.
    I am Tom Thompson, Deputy Chief of the National Forest 
System, Forest Service. I am here to provide the 
Administration's comments on five separate bills. The first one 
I will talk about is H.R. 4870, which is the Mount Naomi 
Wilderness Boundary Adjustment Act.
    The Department supports H.R. 4870, a bill that would adjust 
the boundary of Mount Naomi Wilderness in the Wasatch-Cache 
National Forest in Utah. We believe that this boundary 
adjustment will add to a higher level of wilderness value, 
including areas of solitude, scenery and pristine qualities.
    The boundary adjustment would exclude approximately 31 
acres of land currently part of the Mount Naomi Wilderness and 
would add, in accordance with valid existing rights, 31 acres 
to the wilderness area.
    The bill also requires the secretary to manage these 31 
additional acres pursuant to the Utah Wilderness Act of 1984, 
which was Public Law 98-428. This is adjustment would provide 
for the alignment of the Bonneville Shoreline Trail, which is a 
multi-county recreation trail.
    The trail is designed predominately for non-motorized use, 
which does not conform to a wilderness trail. The boundary 
adjustment would also eliminate the need for a power line 
easement within the wilderness area which is also a non-
conforming use.
    So, the department supports H.R. 4870. I would be happy to 
answer any questions.
    [The prepared statement of Mr. Thompson follows:]

Statement of Tom Thompson, Deputy Chief, National Forest System, Forest 
                Service, U.S. Department of Agriculture

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today. I am Tom Thompson, Deputy Chief 
for National Forest System, Forest Service. I am here today to provide 
the Administration's comments on five bills:
    <bullet> H.R. 3802 a bill to amend the Education Land Grant Act, 
Public Law 106-577, to require the Secretary of Agriculture to pay the 
costs of environmental reviews for conveyances under that act.
    <bullet> H.R. 4870 a bill to make adjustments to the boundaries of 
the Mount Naomi Wilderness Area, and for other purposes.
    <bullet> H.R. 4952 the Mount Wilson Conveyance.
    <bullet> H.R. 4919 the Tonto and Coconino National Forests Land 
Exchange Act
    <bullet> H.R. 4917 the Los Padres National Forest Land Exchange 
Act of 2002
    The Department supports H.R. 4870 and H.R. 4917 and does not object 
to H.R. 3802, H.R. 4952 or H.R. 4919. The Department would like to work 
with the Committee to improve H.R. 4952.

H.R. 3802--A bill to amend the Education Land Grant Act to require the 
        Secretary of Agriculture to pay the costs of environmental 
        reviews.
    H.R. 3802 amends Section 202 of the Education Land Grant Act (ELGA) 
by requiring the Secretary of Agriculture to pay the costs of 
environmental reviews for conveyances under ELGA.
    The Department does not object to the bill. However, the measure 
would prohibit a school district from paying the cost of environmental 
reviews if they choose. In some situations, the exchange process may be 
delayed because the Forest may have other funding priorities or funding 
limitations. In these instances, a school district may be able to 
expedite the exchange process by paying the cost of environmental 
reviews.
    To meet this requirement, the Department would likely need to 
reprogram funding to effectively implement the bill.
H.R. 4870--Mount Naomi Wilderness Boundary Adjustment Act
    The Department supports H.R. 4870, a bill that would adjust the 
boundary of the Mount Naomi Wilderness in the Wasatch-Cache National 
Forest in Utah. We believe the boundary adjustment will add to a higher 
level of wilderness value, including the areas solitude, scenery and 
pristine qualities.
    The boundary adjustment would exclude approximately 31 acres of 
land currently part of the Mount Naomi Wilderness and would add, in 
accordance with valid existing rights, 31 acres to the wilderness area. 
The bill also requires the Secretary to manage the 31 additional acres 
pursuant to the Utah Wilderness Act of 1984 (Public Law 98-428).
    This adjustment would provide for the alignment of the Bonneville 
Shoreline trail, which is a multi-county recreational trail. The trail 
is designed predominately for heavy non-motorized use, which does not 
conform to a wilderness trail. The boundary adjustment would also 
eliminate the need for a power line easement within the wilderness 
area, which is also a non-conforming use.
H.R. 4952--Conveyance of Mount Wilson Observatory
    The Department has concerns with H.R. 4952 and would like to work 
with the Committee to improve the bill. The bill would convey 110 acres 
of National Forest System land without consideration to the Mount 
Wilson Institute. Approximately, 45 acres of the lands to be conveyed 
are currently leased to the Carnegie Institute of Washington, which in 
turn permits the Mount Wilson Institute to operate and maintain the 
Mount Wilson Observatory.
    The bill also specifies that if the observatory is ever used for 
any reason other than scientific, educational, historic, or other 
public purposes it shall revert to the United States.
    The Department believes it is in the public interest for this land 
to remain available for public recreational use. The area surrounding 
the observatory has extremely high recreational value as public open 
space and for dispersed recreation. Mt. Wilson is the center of the 
densest cluster of trails in the San Gabriel Mountain Range a key 
destination on an extensive and highly used trail system and connects 
to approximately 100 trails stretching across the San Gabriel 
Mountains. A large part of Mount Wilson's popularity is due to an 
almost 360-degree panoramic view that includes a view of the entire Los 
Angeles Basin.
    The Department also recognizes and supports improving the manner in 
which the land surrounding the observatory is maintained. For that 
reason, Regional Forester Jack Blackwell has directed the Forest 
Supervisor of the Angeles National Forest to address the maintenance 
issues raised by the Mount Wilson Institute, including hazardous tree 
removal, adequate water supply and the upkeep of public restrooms. It 
is my understanding some hazardous trees have already been removed and 
other efforts are underway to address the other identified maintenance 
concerns.
    Also, the Department would like to ensure that any conveyance of 
land surrounding the observatory be pursued in a fiscally responsible 
way. The value of the 110-acre parcel identified in the bill has not 
yet been determined. It is important that this value be factored into 
the conveyance proposal.
H.R. 4919--Tonto and Coconino National Forests Land Exchange Act
    H.R. 4919 directs the Secretary to exchange approximately 108 acres 
of land within the Tonto National Forest, northeast of Payson, Arizona 
and currently occupied by 45 residential cabins under special use 
permits for 495 acres of non-federal land (known as the Q Ranch) within 
the Tonto National Forest, east of Young, Arizona. This exchange is 
identified in the bill as the Diamond Point/Q Ranch Land Exchange.
    The bill also directs the Secretary to exchange approximately 222 
acres of National Forest System land adjacent to the Town of Payson 
near the municipal airport for roughly 157 acres of private land (owned 
by Montezuma Castle Land Exchange Joint Venture) adjacent to the 
Montezuma Castle National Monument and nearly 143 acres of private land 
known as Double Cabin Park Lands. Both of the private parcels are 
within the Coconino National Forest boundary.
    H.R. 4919 requires that the values of the non-Federal and Federal 
land to be exchanged to be equal or equalized as determined by the 
Secretary through an appraisal by a qualified appraiser and performed 
in conformance with the Uniform Appraisal Standards for Federal Land 
Acquisitions and Federal Land Policy and Management Act of 1976.
    The bill requires the Secretary to execute the Montezuma Castle and 
Diamond Point Land Exchanges within 6 months after receipt of an offer 
from the private landowners, unless the Secretary and the private 
landowners mutually agree to extend such deadline.
    The Department supports the concept of exchanging the National 
Forest System lands, which were identified in H.R. 4919; however, we 
can meet this objective by utilizing existing statutory authorities. In 
fact, the Diamond Point Land exchange is currently being evaluated 
through our administrative exchange process and we anticipate 
completing the environmental analysis and making a decision on this 
proposal in March 2003. However, passage of legislation could conclude 
this process more quickly.
    We have completed an initial review relative to the conveyance of 
the National Forest System lands adjacent to the Payson, Arizona 
airport. We believe a competitive exchange process, utilizing competing 
market forces would best meet the public interest in identifying 
priority private lands for acquisition. Due to the rapidly changing 
market variables in this major growth area and multiple interests 
anticipated for this Federal parcel, this competitive approach would 
serve as the most reliable means of estimating the market value of the 
Federal lands.
    The Forest Service intends to initiate this competitive proposal 
this calendar year and all interested parties will be encouraged to 
participate in this process.
H.R. 4917--To provide for an exchange to eliminate private inholdings 
        in the Los Padres National Forest, and for other purposes
    H.R. 4917 authorizes the Secretary to exchange approximately 420 
acres of National Forest System land for approximately 340 acres of 
inholdings in the Los Padres National Forest. The United Water 
Conservation District of California (UWCD) owns the inholdings.
    This exchange would consolidate interior land boundaries on the 
Ojai Ranger District of the Los Padres National Forest and would 
provide UWCD with contiguous ownership around Lake Piru.
    The bill requires the UWCD to construct a gravel parking area upon 
UWCD lands for the Potholes trailhead of the Los Padres National 
Forest. It also would protect the existing Federal Energy Regulatory 
Commission License for less than a 5-mega watt generator at the 
outfall.
    The Department supports H.R. 4917, but we are concerned about the 
control the bill would give UWCD regarding restricting public vehicle 
access. Any decisions on regulating vehicle access should be made in 
consultation with the Los Padres Forest Supervisor. Additionally, the 
bill does not specify whether the Forest Service or United Water 
Conservation District of California will pay for the associated cost of 
the land exchange. We believe it is in both parties interest to have 
UWCD significantly share in the costs of processing this transaction. 
Finally, we believe that any receipts from cash equalization that are 
deposited into the Sisk Act Fund should be used to acquire replacement 
lands within the Los Padres National Forest instead of being used 
toward facilities. We would like to work with the Committee to address 
these concerns.
Conclusion:
    This concludes my statement. We look forward to working with the 
Committee on making the suggested modifications as noted above, and I 
would be happy to answer your questions.
                                 ______
                                 
    Mr. Peterson. Thank you very much. Do we have any questions 
of the witness?
    We thank you for appearing. We will move on to the next 
issue.
    Mr. Peterson. Dr. Wesley T. Huntress, Jr., Director of the 
Geophysical Laboratory, Carnegie Institution of Washington; and 
Dr. Sallie Baliunas, Deputy Director, Director of Science 
Programs, Mount Wilson Institute.
    Let me remind the witnesses that under our Committee rule 
you must limit your oral statement to 5 minutes, but your 
entire statement will appear in the record.
    I will start with my opening statement and then I will hear 
the witnesses.

 STATEMENT OF HON. JOHN PETERSON, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF PENNSYLVANIA

    Mr. Peterson. Mr. Chairman, thank you for the opportunity 
to present my position on H.R. 4952 of the bill to preserve and 
enhance Mount Wilson Observatory for the purpose of 
safeguarding the special, splendid national treasure.
    I favor the research done there by the scientists at Penn 
State University in my district and other universities 
throughout our country. The Penn State researchers developed 
and used their unmatched state-of-art device costing 
approximately $5 million to study infrared light from stars in 
fine detail.
    Majestically poised in the San Gabriel Mountains north of 
Los Angeles, Mount Wilson Observatory has the calmest air of 
any site on the North American continent. The steady air and 
strings of clear nights so typical on Mount Wilson have made 
the site a premier resource for astronomy since 1889 when 
Harvard first placed a telescope there.
    In 1904, the visionary American scientist, George Ellery 
Hale of Carnegie Institution of Washington founded the complex 
of instruments that were home to the largest telescopes in the 
world and would dominate astronomy for the first half of the 
20th Century.
    With the mighty 100-inch telescope, the great American-born 
astronomer, Edwin Hubble and his colleague, Milton Humason, 
once a mule driver, found the evidence for the unimaginably 
vast distance between galaxies and for the expansion of the 
universe.
    With the largest telescope in the world, the genius of 
Hubble took the last step in the Copernican Revolution. The 
earth is not the cosmos. The sun is not the center. Our galaxy 
is not the center. There is no center. Instead, we see 
everywhere expansion from a beginning about 15 billion years 
ago.
    Beyond the historical important of Mount Wilson, the calm, 
clean air of the mountain has led to a renaissance in research 
there. With advances in technology, Mount Wilson is now home to 
the most powerful new telescopes in the world. Georgia State 
University is just completing a 1,000-foot diameter optical 
interferometer and Berkeley is expanding its Infrared 
Interferometer.
    The two arrays of telescopes are showing with unprecedented 
detail ``star and planet nurseries,'' distant solar systems, 
and death throes of stars. Georgia State's CHARA array 
condition see detail as fine s a quarter held 10,000 miles 
away, or as small as a footprint on the moon. The new 
technology telescopes work best at Mount Wilson's unequaled 
skies
    The Observatory's revitalization owes to the non-profit 
Mount Wilson Institute, which has the authority to manage the 
site into the 22nd century. The institute has preserved this 
astronomical treasure and opened its invaluable sky resources 
to American scientists who come to build 21st telescopes that 
offer light on humankind's place in the cosmos.
    Telescopes have been peering at the starry skies atop Mount 
Wilson as far back as 1889. For 87 years Mount Wilson's 
telescopes worked on private land. In 1976, 1100 acres of land, 
including the approximately 40-acre Observatory parcel and 60 
acres that formed the entryway and public face of the 
Observatory were deeded from private ownership the United 
States Forest Service.
    Over the last 20 years the U.S. Forest Service facilities 
have deteriorated to such a degree that the health and welfare 
of the forest, public and Observatory are at risk. The 
scientists and dedicated personnel of the Observatory have paid 
with scarce research funds and sweat equity to preserve the 
health of the land and forest. Their contributions have been 
especially beneficial to the 60-acre gateway parcel that is 
entirely under U.S. Forest Service ownership.
    The Institute has demonstrated that it is best suited to 
own and care for the land for the public good.
    My bill seeks to legitimize the de facto preservation that 
Mount Wilson Institute has been providing to the public site 
and needs to enhance the facility.
    I ask that approximately 110 acres composed of the 
Observatory and its gateway be conveyed to the Institute. The 
United States benefits from the conveyance in at least two 
ways. First the cost of preserving and enhancing the facility 
for the greatest scientific, historical and educational good 
would shift to the private, rather than the public resources. 
Second, if the site were not used for scientific or educational 
purposes, the land would revert back to the Forest Service.
    A precedent for this transfer has recently been set by the 
Department of Interior and National Park Service which is now 
deeding 313 historic lighthouses to qualified nonprofit groups 
who will preserver them for generations to come.
    Mount Wilson is a priceless historic shrine, and an 
irreplaceable astronomical resource. To preserve and enhance 
Mount Wilson's exploration of the cosmos, the land of this 
unique facility should be transferred to the Institute, which 
cares enough to have invested heavily in its new future for all 
humankind.
    I guess basically my theory is, why should the Forest 
Service who gets $1 for the lease, have to use their very 
scarce resources when they are billions of dollars behind in 
maintenance all over their system?
    Why should we use National Forest Service money when this 
Institute can raise private funds to keep this facility in fine 
shape?
    It just makes sense. If it would ever stop being used in 
the scientific way that it is being used, it would then go back 
to the Forest Service. So, it would remain in public ownership. 
The Institute really serves all the institutions that serve 
there.
    [The prepared statement of Mr. Peterson (H.R. 4952) 
follows:]

Statement of The Honorable John Peterson, a Representative in Congress 
              from the State of Pennsylvania, on H.R. 4952

    Mr. Chairman, thank you for the opportunity to present my position 
on H.R. 4952, a bill to preserve and enhance Mount Wilson Observatory 
for the purpose of safeguarding this splendid national treasure. I 
favor the research done there by the scientists at Penn State Univ. in 
my district, and other universities throughout our country. The Penn 
State researchers developed and use there an unmatched, state-of-the 
art device costing approximately $5 million to study infrared light 
from stars in fine detail.
    Majestically poised in the San Gabriel Mountains north of Los 
Angeles, Mount Wilson Observatory has the calmest air of any site on 
the North American continent. The steady air and strings of clear 
nights so typical on Mount Wilson have made the site a premier resource 
for astronomy since 1889 when Harvard first placed a telescope there.
    In 1904, the visionary American scientist George Ellery Hale of 
Carnegie Institution of Washington founded the complex of instruments 
that were home to the largest telescopes in the world and would 
dominate astronomy for the first half of the 20th century. With the 
mighty 100-inch telescope, the great American-born astronomer Edwin 
Hubble and his colleague Milton Humason, once a mule driver, found the 
evidence for the unimaginably vast distance between galaxies, and for 
the expansion of the Universe. With the largest telescope in the world, 
the genius of Hubble took the last step in the Copernican Revolution: 
the earth is not the center of the Cosmos, the sun is not the center, 
our galaxy is not the center--there is no center. Instead, we see 
everywhere expansion from a beginning about fifteen billion years ago.
    Beyond the historical importance of Mount Wilson, the calm, clear 
air of the mountain has led to a renaissance in research there. With 
advances in technology, Mount Wilson is now home to the most powerful 
new telescopes in the world. Georgia State University is just 
completing a 1,000-foot diameter optical interferometer, and Berkeley 
is expanding its Infrared Interferometer. The two arrays of telescopes 
are showing with unprecedented detail ``star and planet nurseries,'' 
distant solar systems, and death throes of stars. Georgia State's CHARA 
array can see detail as fine as a quarter held 10,000 miles away, or as 
small as a footprint on the moon. The new technology telescopes work 
best at Mount Wilson's unequaled skies.
    The Observatory's revitalization owes to the non-profit Mount 
Wilson Institute, which has the authority to manage the site into the 
22nd century. The Institute has preserved this astronomical treasure 
and opened its invaluable sky resources to American scientists who come 
to build 21st century telescopes that offer light on humankind's place 
in the Cosmos.
    Telescopes have been peering at the starry skies atop Mount Wilson 
as far back as 1889. For 87 years Mount Wilson's telescopes worked on 
private land. In 1976, 1100 acres of land including the approximately 
40-acre Observatory parcel and 60+ acres that form the entryway and 
public face of the Observatory were deeded from private ownership to 
the USFS.
    Over the last twenty years the USFS facilities have deteriorated to 
such a degree that the health and welfare of the forest, public and 
Observatory are at risk. The scientists and dedicated personnel of the 
Observatory have paid with scarce research funds and sweat equity to 
preserve the health of the land and forest. Their contributions have 
been especially beneficial to the 60-acre gateway parcel that is 
entirely under USFS ownership.
    The Institute has demonstrated that it is best suited to own and 
care for the land for the public good.
    My bill seeks to legitimize the de facto preservation that Mount 
Wilson Institute has been providing to the public site, and needs to 
enhance the facility. I ask that approximately 110 acres composed of 
the Observatory and its gateway be conveyed to the Institute.
    The United States benefits from the conveyance in at least two 
ways. First, the cost of preserving and enhancing the facility for the 
greatest scientific, historical and educational good would shift to 
private, rather than public resources. Second, if the site were not 
used for scientific or educational purposes, the land would revert to 
the USFS.
    A precedent for this transfer has recently been set by the Dept. of 
Interior and National Park Service, which is now deeding 313 historic 
lighthouses to qualified nonprofit groups who will preserve them for 
generations to come.
    Mount Wilson is a priceless historic shrine, and an irreplaceable 
astronomical resource. To preserve and enhance Mount Wilson's 
exploration of the Cosmos, the land of this unique facility should be 
transferred to the Institute, which cares enough to have invested 
heavily in its new future for all humankind.
                                 ______
                                 
     Mr. Peterson. We are going to keep going here. There is a 
journal vote at 10. At some point in time we will have to run 
for that.
    I now recognize Mr. Thompson for his statement.

  STATEMENT OF TOM L. THOMPSON, DEPUTY CHIEF, NATIONAL FOREST 
                            SERVICE

    Mr. Thompson. Again, thank you, Mr. Chairman and Members of 
the Subcommittee. I will now present the Administration's 
position on H.R. 4952 which is the conveyance of Mount Wilson 
Observatory.
    The department has concerns with H.R. 4952 and would like 
to work with the Committee to improve the bill. The bill would 
convey 110 acres of National Forest Service System land without 
consideration to Mount Wilson Institute.
    Approximately 45 acres of the lands to be conveyed are 
currently leased to the Carnegie Institute of Washington, which 
in turn permits the Mount Wilson Institute to operate and 
maintain Mount Wilson Observatory.
    The bill also specifics that if the Observatory is ever 
used for any reason other than scientific, educational, 
historic or other public purposes, it shall revert to the 
United States. The Department believes that it is in the public 
interest for this land to remain available for public 
recreation use. The area surrounding the observatory has 
extremely high recreation value as public open space and for 
dispersed recreation.
    Mount Wilson is the center of the most dense cluster of 
trails on the San Gabriel Mountain Range, a key destination on 
an extensive and highly used trail system and connects with 
approximately 100 trails stretching across the San Gabriel 
Mountains. A large part of Mount Wilson's popularity is due to 
an almost 360-degree panoramic view that includes a view of the 
entire Los Angeles Basin.
    The Department also recognizes and support improving the 
matter in which the land surrounding the Observatory is 
maintained. For that reason, Regional Forester Jack Blackwell 
has directed the forest supervisor of the Angeles to address 
the maintenance issues raised by the Mount Wilson Institute 
including hazardous tree removal, adequate water supply and 
upkeep of public restrooms.
    It is my understanding that some hazardous trees have 
already been removed and other efforts are underway to address 
the other identified maintenance concerns. Also, the department 
would like to ensure that any conveyance of land surrounding 
the Observatory be pursued in a fiscally responsible way.
    The value of the 110-acre parcel identified in the bill has 
not yet been determined. It is important that this value be 
factored in to the conveyance proposal.
    Now that is my testimony and I would be happy to answer 
questions.
    Mr. Peterson. Thank you, and now we recognize Dr. Huntress.

  STATEMENT OF WESLEY T. HUNTRESS, JR., DIRECTOR, GEOPHYSICAL 
         LABORATORY, CARNEGIE INSTITUTION OF WASHINGTON

    Mr. Huntress. Thank you, Mr. Chairman. My name is Wesley 
Huntress, Jr. I am the Director of the Geophysical Laboratory, 
which is one of the five scientific research institutions at 
the Carnegie Institution of Washington.
    I am here representing Maxine Singer, who is President of 
the Carnegie Institution, but was unable to attend.
    I would like to give the Committee a kind of a sense of the 
history of the Institution's involvement with Mount Wilson and 
the Forest Service. Carnegie Institution is a Congressionally 
chartered institution, founded and endowed by Andrew Carnegie 
100 years ago this year, as a matter of fact. Its mission is to 
discover new knowledge through scientific research, achieving 
that through the support of exceptional individuals, one of 
whom you have mentioned already, George Ellery Hale, who in 
1904 received approval from the Carnegie Institution to 
establish the Mount Wilson Observatory. Over the next 20 years, 
he built telescopes for the study of the sun and two large 
optical telescopes, the 60-inch and 100-inch, which is still 
there today.
    In their time, they were the largest telescopes in the 
world. That lasted until 1948 when the Carnegie Institution and 
Cal Tech inaugurated the 200-inch on Mount Palomar. So, for the 
first half of the last century, the 20th century, the Mount 
Wilson Observatory set the standard for astronomy and made the 
United States the world leader in these sciences.
    The greatest astronomers of that period were, in fact, 
Carnegie staff members, including Edwin Hubble, who joined the 
staff in 1919 and over the 20 years following that he 
transformed our understanding of the universe. As you have 
heard this morning, he made major discoveries with that 100-
inch telescope.
    But of greater significance, he demonstrated that the 
universe is made up of many galaxies in addition to our own 
Milky Way and that all distant galaxies are moving away from 
us. In other words, the universe is expanding.
    In the 1970's, driven by an interest to study objects in 
the southern skies, the Carnegie set up an observatory in 
northern Chile. During the 1980's, the light pollution over the 
Los Angeles Basin became an increasing threat to the use of 
Mount Wilson. So, at the end of that decade, the Institution 
decided to put all of its resources in astronomy in Chile and 
to close Mount Wilson.
    Nevertheless, there was much useful work that could still 
be done at Mount Wilson, particularly in education. So, the 
Carnegie Institution was quite pleased when the independent 
Mount Wilson was formed and proposed to operate the mountain 
and its facilities.
    We had a formal agreement established in 1991. But Carnegie 
Institution remains the owner of the Observatory. The land on 
which the Observatory stands is currently leased to the 
Carnegie Institution by the U.S. Forest Service and 
anticipating the end of this 99-year lease in 2003 and in view 
of the request by the Mount Wilson Institute and its productive 
scientific activities, the Carnegie Institution applied to the 
Forest Service for a 99-year extension of this is lease which 
was granted in March of this year.
    We learned of the current proposed legislation about 3 
weeks ago. We do have some questions with regard to our 
ownership and responsibility for the buildings and equipment on 
Mount Wilson and our legal relationship with the Mount Wilson 
Institute.
    I would like the Committee to know that we have a very good 
relationship with the Mount Wilson Institute. We are not 
adverse to the bill. We wish only to make a considered 
judgment. Our principal interest is in the protection and the 
preservation of those historic buildings on the land.
    Thank you for your attention.
    [The prepared statement of Mr. Huntress (H.R. 4952) 
follows:]

    Statement of Dr. Wesley T. Huntress, Jr., Director, Geophysical 
    Laboratory, Carnegie Institution of Washington, Washington, D.C.

    Good morning. My name is Wesley T. Huntress, Jr. and I am Director 
of the Geophysical Laboratory, one of the five scientific research 
departments of the Carnegie Institution of Washington. I am here for 
Maxine Singer, President of the Carnegie Institution, who was unable to 
attend. I would like to give the Committee a sense of the history of 
Institution's involvement with Mt. Wilson and the Forest Service. The 
Carnegie Institution is a Congressionally chartered institution founded 
and endowed by Andrew Carnegie 100 years ago this year. Its mission is 
to conduct fundamental scientific research to discover new knowledge, 
in the words of the founder, ``for the benefit of man''. Andrew 
Carnegie stated that this mission was to be achieved through the 
support of 'exceptional' individuals.
    One of the first of these exceptional individuals was George Ellery 
Hale. In 1904 he received approval from the Carnegie Institution to 
establish the Mount Wilson Observatory and the Observatory's offices in 
nearby Pasadena, California. There, over the next 20 years, he built 
telescopes for study of the sun and two large optical telescopes, one 
with a 60-inch mirror, and one with a 100-inch mirror. They were in 
their time the largest telescopes in the world and would remain so 
until 1948 when the Carnegie Institution and the California Institute 
of Technology inaugurated the 200-inch telescope at Palomar. For the 
first half of the 20th century, the Mount Wilson Observatory set the 
standard for astronomy and astrophysics and made the United States the 
world leader in these sciences. The greatest astronomers of that period 
were Carnegie staff scientists including perhaps the most famous of 
them all, Edwin Hubble.
    In 1919 Edwin Hubble joined the staff of the Mount Wilson 
Observatory. Over the next 20 years Hubble transformed our 
understanding of the universe. He made many major discoveries with the 
100-inch telescope, but of greatest significance he demonstrated that 
the universe is made up of many galaxies in addition to our own Milky 
Way and that all the distant galaxies are moving away from us; in other 
words, the universe is expanding. After Hubble's death in 1953, staff 
member Allan Sandage continued the thrust of Hubble's work on the 
expansion of the universe and to this day works on the question of the 
rate of the expansion and thus the age of the universe.
    In 1969, driven by an interest in studying the objects seen from 
southern skies, the trustees of the Institution obtained property in 
northern Chile and constructed the Las Campanas Observatory. During the 
1980's, light pollution over the Los Angeles area became an increasing 
threat to the use of the Mount Wilson telescopes. By the end of that 
decade, the Institution decided to put its resources for astronomy at 
Las Campanas and to close Mount Wilson. Nevertheless, there was much 
useful work that could still be done at Mount Wilson. The Institution 
was therefore pleased when the independent Mount Wilson Institute was 
formed and proposed that it operate the mountain and its facilities. A 
formal agreement was established in 1991 between the two institutions. 
The agreement involves no flow of funds in either direction but does 
require certain periodic reports from the Mount Wilson Institute to the 
Carnegie Institution, which remains the owner of the Observatory.
    The land on which the Observatory stands is currently leased to the 
Carnegie Institution by the U.S. Forest Service. Anticipating the end 
of this 99-year lease in 2003, and in view of a request by the Mount 
Wilson Institute and the productive scientific activities carried out 
on the mountain under its auspices, the Carnegie Institution applied to 
the Forest Service for a 99-year extension of this lease. The extension 
was approved by the Forest Service in March of this year following the 
payment of one dollar. We only recently learned of this proposed 
legislation to transfer title of the land on which the Mt. Wilson 
Observatory stands from the Forest Service to the Mt. Wilson Institute, 
and we have not had sufficient time to understand the implications with 
regard to our ownership and responsibility for the buildings and 
equipment on Mt. Wilson or on our legal relationship with the Mt. 
Wilson Institute. We have many questions that remain to be answered in 
this regard, so that at the present time we cannot say whether we can 
support or oppose.
    Thank you for your attention. I will be pleased to respond to your 
questions.
                                 ______
                                 
    Mr. Peterson. Thank you, Dr. Huntress.
    Our next witness is Sallie Baliunas.

   STATEMENT OF SALLIE BALIUNAS, DEPUTY DIRECTOR OF SCIENCE 
               PROGRAMS AT MOUNT WILSON INSTITUTE

    Ms. Baliunas. Thank you Mr. Chairman and distinguished 
members of the Committee. I am grateful for the opportunity to 
provide information on H.R. 4952. Since 1989, I have been 
Deputy Director of Mount Wilson Institute. I have worked at the 
Observatory conducting research for 26 years.
    In the 21st century, Mount Wilson's calm air remains a 
priceless resource to astronomers. They have built cutting edge 
research and new technology telescopes and instruments. Our 
scientists come from all over the world, most notably 
scientists from Berkeley, Georgia State, Penn State, University 
of Illinois, Harvard, Smithsonian, UCLA, USC, JPL, Cal Tech, 
Hawaii, Chicago, the National Optical Astronomy Observatories 
all rely on this priceless calm air of the skies above Los 
Angeles.
    As a result of this, Mount Wilson Institute, just in the 
last 10 years, has overseen approximately $62 million 
investigated from public and private sources in new telescopes, 
new assets, improvements and maintenance both on our facility 
and on the adjacent public lands of the Forest Service which 
are critical for the access to our facility.
    Now, the history of this is that in 1976, 1100 acres were 
given to the Forest Service from a private company. Forty-five 
acres are the leasehold for the observatory and there is 
approximately 60 acres of a front gateway. In that front 
gateway area to the Observatory it includes roads built by the 
private company, two parking lots, restrooms, drinking 
fountains, stairs, picnic facilities, retaining walls, fences 
and several dilapidated buildings that have been abandoned.
    Through my 26 years of research at the Observatory, these 
public facilities have deteriorated from terrible to 
disrespectful. In the last 10 years Mount Wilson Institute has 
been requesting that the Forest Service meet its obligations, 
both on the entryway parcel whose facilities have severely 
deteriorated, and on the Observatory grounds.
    Visitorship has fallen from about 1500 people per weekend 
to about 50. Now the public is ill served by this. The Forest 
Service no longer, for example, opens and shuts the security 
gate. Mount Wilson Institute is forced to open and shut the 
Forest Service security gate in order to allow the public 
entryway to the public land.
    We provide the security. We have often swept the trash 
away. We now provide the toilet facilities for the public. 
There is just one immediate concern that is very hazardous and 
that is the extreme risk of fire. This year may be the worst 
for fire risk in the 112-year history of the mountaintop 
Observatory.
    On the Observatory parcel, the 1905 lease requires the 
Mount Wilson Institute and the Forest Service to share the 
burden of reducing fire hazard. This includes removing the 
trees and shrubs too close to buildings and other code 
requirements.
    My current and prior site supervisors report that the 
Forest Service has rarely met its share of risk abatement. That 
has left the Institute bearing essentially all the cost in 
order to protect not only its employees, their families, 
visitors and the public, but also the forest and its facility.
    Now, as for trees, the Institute has for several years been 
requesting permission to remove trees that are fire and falling 
hazards or that interfere with the operation of the telescopes. 
Only recently, but we are extremely grateful, that inspection 
and permission to remove some of these trees has been granted. 
The backlog of just serious tree problems is so great that 100 
trees need to be removed as quickly as possible.
    On the Forest Service parcel that is the gateway to the 
Observatory, we have urged for some time that fire hazards be 
addressed. A related and extremely serious issue is the nearly 
empty 300,000-gallon cistern that is the only firefighting 
water for about one-half mile.
    The pump for this Forest Service tank had broken and 
remained broken for nearly a year. Now the tank cannot be 
filled from the nearby wells, which are now mostly dry owing to 
the severe drought this year, in time for firefighting 
preparedness. The public has lost a huge amount of benefits 
from this.
    The Mount Wilson Institute has been taking on the public 
obligations to open these recreational facilities. We have paid 
a quarter of a million dollars just in the last 6 years to meet 
these Forest Service obligations.
    The costs have been borne by donors, scientific grants from 
Federal and State agencies and the Board of Trustees and the 
scientists who work to preserve and enhance this irreplaceable 
site unanimously support the proposed land transfer.
    We are hoping to ensure that the unique capabilities of the 
Observatory are developed and used for the highest scientific 
and educational purposes and for the intellectual and practical 
benefit of humankind.
    Thank you for your time.
    [The prepared statement of Ms. Baliunas (H.R. 4952) 
follows:]

 Statement of Sallie Baliunas, Ph.D., Deputy Director and Director of 
                Science Programs, Mount Wilson Institute

    Chairman McInnis and distinguished Members of the Subcommittee:
    I am grateful for the opportunity to provide information on H.R. 
4952. I have been conducting astronomical research at Mount Wilson 
Observatory since 1976. Since 1989 I have been Deputy Director of Mount 
Wilson Institute, the non-profit organization authorized to operate the 
Observatory into the 22nd century. My research there has been part of 
my official duties as scientist at the Harvard-Smithsonian Center for 
Astrophysics for 22 years.
    As Mr. Peterson noted, Harvard College Observatory first installed 
a telescope on Mount Wilson in 1889, on then-private land. By 1904, 
George Ellery Hale had begun planning to place there the next two 
largest telescopes in the world. With some of the world 's greatest 
scientists using the most magnificent telescopes at the site with 
extraordinarily calm air, the Observatory became the origin of profound 
leaps of knowledge about humankind's place in the Cosmos.
    21st century on Mount Wilson--Today top scientists from Berkeley, 
Georgia State University, Penn State Univ., Univ. Illinois, Harvard-
Smithsonian Center for Astrophysics, UCLA, USC, JPL, Cal Tech, Univ. 
Hawaii, Univ. Chicago and National Optical Astronomy Observatories 
(NOAO) conduct cutting-edge research with new-technology telescopes and 
instruments set in the priceless calm skies above Los Angeles. As a 
result of this precious calm air, Mount Wilson Institute in the last 
ten years has overseen the approximately $62 million invested from 
public and private sources in new assets, plus improvements in and 
maintenance of existing assets that support astronomy and education. (A 
letter from the Director of the CHARA, Prof. Hal McAlister, the most 
powerful optical interferometer in the world, is attached as Appendix 
A).
    Public land and assets In 1976 an 1100-acre parcel of land 
containing the Observatory's 40 or so acres left private ownership and 
came to the USFS. The donated parcel also holds approximately 60 acres 
with visitor facilities built and donated to the public by the former 
private owner. This area forms the gateway to the Observatory, and 
includes roads, two large parking lots, restrooms, drinking fountains, 
stairs, picnic facilities, retaining walls, fences, and several 
buildings that have been abandoned for several years.
    Through my 26 years of research at the Observatory the public 
facilities have deteriorated. In the last ten years, Mount Wilson 
Institute has been requesting that the Forest Service meet its 
obligations both on the public ``gateway parcel'' and on the 
Observatory grounds. There are two main concerns about USFS fulfillment 
of its obligations. First is for managing forest and public risk; and 
second is for the public benefit. A list of concerns that have been 
given to the USFS in ongoing communications is attached (Appendix B). I 
wish to discuss one important example in detail.
    Immediate hazards: Fire risk This year may be the worst for fire 
risk in the 112-year history of the mountaintop observatory. On the 
Observatory parcel the 1905 Lease requires that Mount Wilson Institute 
and USFS share the burden of reducing fire hazards. This includes 
removing trees and shrubs too close to buildings. My current and a 
prior site supervisor report that USFS has rarely met its share of fire 
risk abatement. The Institute has borne essentially all the cost in 
order to protect not only its employees, their families, visitors and 
the public but also the forest and facility.
    As for trees, the Institute has for several years been requesting 
permission to remove trees that are fire and falling hazards, or 
interfere with the operation of the telescopes. (The 1905 Lease allows 
the Institute to remove trees that unduly affect telescope viewing). 
Only recently have inspection and permission been granted; the backlog 
of serious tree problems is so great that approximately 100 trees need 
to be removed as quickly as possible.
    On the USFS parcel that is the gateway to the Observatory, we have 
urged for some time that fire hazards be addressed. A related issue is 
the nearly-empty USFS 300,000-gallon cistern that is the only fire-
fighting water for one-half mile. The pump for the tank had broken and 
remained so for nearly a year, and now the tank cannot be filled from 
the nearby wells in time for fire fighting preparedness.
    Lost public benefits Per the 1905 Lease, the Observatory must be 
open free to the public. Moreover, the Institute believes that public 
access to the Observatory is an important mandate. Because USFS 
controls the access parcel, its dilapidated condition has decreased 
visitorship by more than a factor of ten in the last ten years. There 
are unsafe staircases, failed retaining walls, dead trees, broken 
fences, and attractive nuisances. The public restrooms have been closed 
for broken fixtures and a failed septic system. The Institute now pays 
over $10,000 per year for portable facilities on USFS land.
    Mount Wilson Institute has paid about $250,000 just in the last six 
years (the period for which I summed the costs) to meet USFS 
obligations. The costs have been borne by donors, plus scientific 
grants from Federal and state agencies. Mount Wilson's Board of 
Trustees and the scientists who work to preserve and enhance this 
irreplaceable site unanimously support the proposed land transfer in 
order to ensure that the unique capabilities of the Observatory are 
developed and used for the best and highest scientific and educational 
purposes, for the intellectual and practical benefit of humankind.
    Thank you for your time and attention.

   Appendix A: Statement from Prof. Hal McAlister, Director of CHARA 
     (Center for High Angular Resolution Astronomy) on Mount Wilson

From: Harold A. McAlister
Sent: Tuesday, June 18, 2002 1:38 PM
Subject: Re: Mt. Wilson Institute Agreement

Dear Cong. Peterson:

    I am pleased to comment on aspects of CHARA's presence on Mt. 
Wilson in connection with the proposed transfer of the land occupied by 
observatory facilities from the USFS to MWI. The CHARA Array consists 
of six telescopes, distributed over the observatory grounds, whose 
beams of light are relayed to a central beam combination laboratory and 
are combined interferometrically to synthesize a single telescope some 
350 meters in diameter. The scientific mission for the Array is the 
study of details on the surfaces of other stars and the determination 
of basic physical parameters for stars (such as their mass, distance, 
temperature, diameter and luminosity).
    Our facility, which consists of 17 separate structures, was 
constructed between 1996 and 2001 at a capital cost of approximately 
$14M with approximately 45% of these funds provided by a grant from the 
National Science Foundation. My University provides an annual operating 
budget of approximately $350K for our activities on Mt. Wilson. Our 
access to this wonderful site was formalized on 30 Oct 1995 when our 
President signed a Memorandum of Understanding with the Mount Wilson 
Institute. This agreement provides us access to the site and speaks to 
mutual obligations regarding infrastructure availability and upkeep. 
Our relationships with MWI have consistently been positive at all 
levels, and our staff has worked well with MWI mountain staff on 
numerous occasions to mutual benefit.
    I strongly support this land transfer for several reasons. First, 
it recognizes that MWI has been acting de facto as the entity with sole 
responsibility and liability (although with no privileges or authority) 
for maintaining grounds and facilities (including public facilities) at 
the Observatory. Second, MWI is now embarking on an ambitious program 
to enhance its viability through the introduction of new scientific 
opportunities and programs of public outreach, and land ownership will 
be a critical enhancement of the Institute's prospects towards 
achieving these goals through private fundraising efforts. Finally, I 
know that USFS resources are thinly stretched, and it simply makes good 
sense to turn over this limited and highly specialized site to the 
management of a group whose sole purpose is the preservation and 
furtherance of the Mount Wilson Observatory.
    In response to your question of the accuracy of stating that CIW 
``owns'' the Observatory, which I view as being defined by the land 
reservation set aside for astronomical research and all the buildings 
and facilities therein, it is clear that CIW does not own the land nor 
does it own the modern generation of facilities and buildings 
constructed there by Georgia State, UC Berkeley, the Naval Research 
Laboratory and others. CIW does indeed own the structures and 
telescopes it constructed prior to its closing those facilities in the 
late 1980's.

    Sincerely,

Harold A. McAlister Regents' Professor of Physics and Astronomy
Director, Center for High Angular Resolution Astronomy
Georgia State University
Atlanta, GA 30303
CHARA Website:=``http://www.chara.gsu.edu/CHARA/index.html'' 
MACROBUTTONHtmlResAnchorhttp://www.chara.gsu.edu/CHARA/index.html

  Appendix B: List of immediate concerns and risks transmitted to USFS

    <bullet> USFS must provide opening and closing of USFS electric 
access gate to public areas. This activity includes a security sweep of 
the public area at gate-closing, and search for and attention to 
unattended or inadequately-doused cooking fires.
    <bullet> The USFS 300,000 gallon reservoir has only 7 feet of 
water (the maximum depth is 30 feet). Water should be added to ensure 
adequate reserve for fire fighting capability.
    <bullet> Two long-dead tall dead ponderosa pines on the public 
roads are falling hazards.
    <bullet> Dead tree limbs on the public buildings are fire hazards.
    <bullet> Brush clearance is inadequate near public buildings.
    <bullet> The abandoned A-frame building is so dilapidated that it 
must be removed. (On June 9, 2002, USFS kindly boarded the building 
from accidental access.)
    <bullet> USFS bathrooms remain closed and unrepaired. If USFS opts 
to keep them closed in order to conserve water this year, the USFS 
should install portables nearby along with a hand-washing station. 
(Mount Wilson currently pays for portables on USFS site.)
    <bullet> USFS needs to commit to plow snow form its portion of the 
access road.
    <bullet> USFS needs to remove some trees to close to the roadways 
to ensure plowing safety.
    <bullet> USFS needs to widen its electric Front Gate for passage 
by emergency vehicles.
    <bullet> USFS needs to repair potholes on its access road.
    <bullet> USFS needs to repair its asphalt at the Front Gate 
entrance.
    <bullet> USFS safety fences need repair.
    <bullet> USFS retaining walls need repair.
    <bullet> Some public stairs and walkways are unsafe.
    <bullet> USFS needs to designate an area of the lower parking lot 
for emergency/rescue helicopter landing (LA County is re-issuing its 
long-standing request).
    <bullet> USFS needs to commit to its partial responsibility for 
fire prevention (brush and tree clearance) on the Observatory parcel.
    <bullet> USFS needs to inventory and keep repaired its water 
facilities.
    <bullet> USFS needs to ensure that public trash is consistently 
removed and kept from bears.
                                 ______
                                 
    Mr. Peterson. We thank both of you, Dr. Huntress and Dr. 
Baliunas and Mr. Thompson.
    Mr. Inslee, do you have any questions for the panel?
    Mr. Inslee. I do. Thank you very much. My questions might 
reveal not total familiarity with this issue, so you will 
forgive me.
    Could you tell us what guarantees are to the public? 
Essentially, as I understand it, this is a grant without 
consideration to a nonprofit organization. What is the 
situation regarding the nonprofit? Could it at some time sell 
the property? Are there any restrictions in that regard or 
could the nonprofit go out of existence and sell the property?
    What guarantees are there of further public use, if you 
will tell us.
    Ms. Baliunas. This bill conveys to Mount Wilson Institute, 
which is a nonprofit. If we become a nonprofit, I presume the 
Secretary of Agriculture will come in and remove the land 
because of the reversion clause in there. But the language 
isn't quite right to do that. Then it should be made right.
    But we have no intention of selling the land. We can't.
    Mr. Inslee. Maybe you could explain to me why you could 
not. If there is a grant to the nonprofit, what restrictions 
are there?
    Ms. Baliunas. The language in the bill says that Mount 
Wilson Institute, as a nonprofit, will operate this. So, Mount 
Wilson Institute is not a nonprofit. I presume we are in 
violation of the language of the bill and the reversion clause 
comes into effect. The determination would be made by the 
Secretary of Agriculture.
    Furthermore, if we are not conducting research there, if we 
are not using this as an observatory, the reversion clause also 
comes into effect.
    Mr. Inslee. Mr. Peterson could help me on this. As I 
understand it, there would be a requirement to be operated as 
an observatory?
    Ms. Baliunas. Yes.
    Mr. Inslee. I appreciate that.
    Ms. Baliunas. Either nonprofit. So, both conditions have to 
be met.
    Mr. Inslee. To what extent is this whole proposal a 
response to your perceptions that there has just been a lack of 
fulfillment of obligations by the lessor in this situation?
    Ms. Baliunas. I have been working with the Congressmen, Mr. 
Moorhead, Mr. Rogan, currently Mr. Schiff and in the future, in 
January, Mr. Dreier, to address these issues, for 10 years. 
There has been very little response. We are pleased that there 
has been response over the last few weeks.
    But this is now catch-up of more than 10 years of severe 
deterioration and open hazards on this land.
    Mr. Inslee. Maybe this is kind of an esoteric question, but 
I will ask it to you anyway. We have a lot of circumstances 
where national forest lands are not adequately repaired. We 
have, for instance, an $8 billion backlog in maintenance of our 
forest groves.
    How do we separate those situations from what you are 
proposing? I mean the logical extension of this is when 
Congress fails to appropriate enough to maintain these public 
lands, is the extension of this that we just sort of privatize 
them, we give them away to nonprofits?
    Where do we draw boundaries in that regard? That is an open 
question to anyone.
    Mr. Peterson. If I could respond to that, my thought 
processes are, because you just hit the nail on the head, the 
$8 billion backlog. This is used for the public good. It is an 
observatory used by institutions all over this country. It is 
the finest place for observing the stars and sun that there is 
in this country. So, it is for the public good.
    It would seem to me that it is foolish to require the 
Forest Service, when they have a $1 lease, to continue to use 
those scarce resources to maintain this facility when the 
lessor could raise private funds to keep it up.
    The reversion clause is strong. If anybody wants to make it 
stronger, I am glad to work with them. But if it is not used as 
a research facility, as it has been, then it goes back to the 
Forest Service; it is theirs.
    So, it is not a matter of putting it into private or for 
profit hands. It is strictly for the public good. Shouldn't we 
relieve the Forest Service of this cost? In my view that makes 
public policy sense when the institute has in the past shown it 
can raise funds and has often done the Forest Service 
maintenance work and plowed the snow and dealt with the water 
problems and dealt with the restaurant facilities and things 
which are not uncommon across the country because of the lack 
of resources appropriated by Congress for the Forest Service 
and other agencies.
    So, to me it just seems like nothing is going to change 
except there will be private resources brought to bear to 
maintain this facility. To me, that just makes public policy 
sense. It is sort of like taking the problem away from the 
Forest Service.
    But if this is not used as a research facility, it goes 
back to the forest service.
    Mr. Inslee. Could I have one more question? What is the 
coolest thing ever discovered at the observatory?
    Ms. Baliunas. Oh, I would say in the days of Hubble, the 
expansion of the universe, the origin of space time 15 billion 
years ago.
    Mr. Inslee. I was at a Flagstaff observatory and I thought 
they said that one had something to do with the Hubble 
research. Are they making that up?
    Ms. Baliunas. No. What happened is they had a smaller 
telescope and had done initiative measurements and had seen an 
expansion of the galaxies. But because Hubble looked at that 
and said, that needs to be done with the biggest telescope in 
the world, he came to Mount Wilson and turned his genius for 
telescopes and the fantastic night sky there to charting 
expansion of the universe. So, it was the work at Lowell that 
was the seed for it.
    Mr. Inslee. Is there any relationship between the expansion 
of the universe and the expansion of the Federal deficit? 
Perhaps you can work on that.
    Ms. Baliunas. One is expanding and one is accelerating.
    Mr. Peterson. Well, we have a journal vote. I am told we 
should go. Does anybody have a quick question before we go?
    Mr. Holt. Mr. Chairman, I would be happy to use my time 
now. I think we have another probably 14 minutes.
    Mr. Peterson. Go ahead. Mr. Holt from New Jersey.
    Mr. Holt. Thank you, Mr. Peterson.
    Actually, Ms. McCollum was here first. Perhaps she would 
like to go first. I apologize.
    Ms. McCollum. You have the gavel, but I would like to be 
able to hear the testimony, feel that I can record my vote and 
come back and ask intelligent questions. I am at a loss for 
what to do.
    Mr. Peterson. Do you want to proceed, Mr. Holt, and then we 
will go vote and then we will come back and Ms. McCollum can 
proceed. We will keep the panel here.
    Mr. Holt. Thank you, Mr. Chairman. Well, there are a number 
of questions that come to mind here, partly because of my long 
standing personal interest in Mount Wilson and the science that 
has come from there. In my former career as a physicist, and 
specifically a solar physicist, I have been very interested in 
your work, Dr. Baliunas, and the work of others from Mount 
Wilson, and in fact, have used work that has come out of there.
    So, I want to do anything I can to see that Mount Wilson 
continues this great tradition.
    First of all, just to get a sense of what we are talking 
about in this conveyance of land, I understand the Forest 
Service has not done a formal value assessment of this. But can 
you give us some idea? Are we talking about a few million 
dollars or many tens of millions of dollars in value of the 
land here?
    Mr. Thompson. Yes. There hasn't been a formal appraisal 
done of the property, but the estimates that I have been given 
are around $1 million per acre value. That would be, obviously, 
for 100 acres would be $100 million, but that is without the 
basis of a sound appraisal.
    Mr. Holt. So we are talking about significant value here, 
so I have some idea of the scale.
    Mr. Thompson, one more question: When were you first aware 
of Mount Wilson Institute's complaints about the level of 
maintenance?
    Mr. Thompson. I am not sure. I am sure at the district 
level, as the previous witness has testified, there have 
probably been ongoing discussions for a number of years. I do 
know that the regional forester in the region has kept this as 
one of the top priorities, aside from fire, to put her energy 
on, on the forest.
    There have been meetings and commitments made to turn the 
maintenance situation around, specifically with regard to trees 
and toilets and some of the other issues with regard to the 
tank and other things. There are obviously some pressing 
problems that need to be dealt with. The region and the forest 
and the district ranger are all committed to put the energy 
into it at the appropriate opportunity to make some significant 
improvements.
    Mr. Holt. Dr. Huntress, in the period reports that come to 
Carnegie Institution, I presume, from the management 
organization at Mount Wilson Institute, have these problems 
that are being described today been reported?
    Mr. Huntress. No, Mr. Congressman, we had no reports in 
these periodic updates as to any particular difficulties with 
the Forest Service.
    Mr. Holt. Well, I ask these questions because it sounds as 
if there are some legitimate concerns about maintenance. If 
visitors have fallen off from more than 1,000 to fewer than 
100, that is, I think, a measure that something is wrong. If 
the institute is in fact taking on work that the Forest Service 
used to do or could do, we should address that.
    But it is not clear to me that the conveyance of the land 
is the best way or the only way to address it.
    Dr. Baliunas, what I am trying to understand, is your goal 
here to see that the land is conveyed or that the services are 
provided?
    Ms. Baliunas. I want what is best for the land. I want the 
best public access to the observatory. Our mandate is to 
provide information, knowledge, be free and open to the public. 
It is in our 1905 lease agreement that we would be free and 
open to the public. It is difficult to do when the front gate 
is locked, unless we provide that service.
    Mr. Holt. OK, so your goal is to see that the front gate is 
open--
    Ms. Baliunas. Our goal is to see that the public visitors 
are best served and that the health of the land is preserved.
    Mr. Holt. If you are currently shouldering the cost of 
plowing the road and hiring somebody to open the gate and 
renting the Porta-Potty and so forth, how would your expenses 
be less if the land were transferred to you? You will be doing 
those jobs, whether the land belonged to the Forest Service or 
it belonged to Mount Wilson Institute.
    Ms. Baliunas. Yes, but they would be done with more 
assurance, more regularity and more assurance.
    Mr. Holt. I guess I don't understand why. I mean you can 
hire somebody with all the authority you want to open the gates 
or you can hire somebody with as good a plow truck as you want, 
regardless of who owns the plant.
    Ms. Baliunas. But not for the Forest Service facilities. It 
is very difficult for us to take on that liability without 
having the authority to do that. So, for example, fixing the 
restrooms that are up there, we do not have the authority to do 
that unless we are given the facility.
    Mr. Holt. The reason I am raising these questions is 
because it seems rather suddenly and without any expectation 
that the Carnegie Institute is aware of, suddenly the land 
needs to be conveyed in order that this maintenance takes 
place.
    I can understand the risk of fire. That is something that 
clearly must be addressed soon. I hear this from all of you. 
But it is not clear to me that the conveyance of these hundred 
acres necessarily means that.
    I mean if the Forest Service is not doing a good job of 
fire prevention just outside the hundred acres, that could be 
as devastating to you as whether they are doing it within the 
hundred acres.
    The point is we want to see the Forest Service protecting 
that area, not just for the sake of the tradition that resides 
there at Mount Wilson, but for the current work. I am not sure 
that the conveyance of this hundred acres would make that any 
easier.
    With regard to the expenses and difficult of the Mount 
Wilson Institute, maintaining it, providing for tourists and so 
forth, it seems to me that is the same regardless of who owns 
the land. If there specific roadblocks literally or 
figuratively that the Forest Service is putting in the way of 
the Mount Wilson Institute's maintenance, I would like to see a 
list of those things and then we can see whether each one of 
those things can be addressed by further arrangements with the 
Forest Service or whether it can be addressed by a conveyance 
of the land.
    If it turns out that a conveyance of the land makes sense, 
then we can talk about whether it should be done in some fee 
simply arrangement or with the taxpayers gift to an institute 
that is in some sense serving the public.
    Ms. Baliunas. I have a preliminary list attached to my 
testimony. July 1, with the forester, we will go through a much 
longer list.
    Mr. Holt. I think we need to take time to get a full list 
here. This is not a small matter.
    Mr. Peterson. This meeting is in recess. Please hurry back. 
We have three more bills and we have to be out of this room at 
11 o'clock. This meeting is in recess.
    [Recess.]
    Mr. Peterson. The Committee is called back to order. The 
Committee hearing was suspended for a vote
    We will go now to Ms. McCollum from Minnesota for her 
questions.
    Ms. McCollum. Thank you, Mr. Chairman. As this is my first 
term on the Committee, I have a couple of really brief 
background questions for the Forest Service.
    Sir, do you ever have instances where the Forest Service 
works with community organizations, community volunteers and 
nonprofits to go in and fix up, work on portions of open space 
to make them more accessible for the public.
    Mr. Thompson. Yes, we do. There are numerous examples 
around the country where we work in partnership with 
communities, friends of a place, those kinds of things, to 
enhance and bring together volunteers. An example that I would 
use --
    Ms. McCollum. That is fine. I just wanted to know if you 
did that, sir.
    The other question that I have is more for the spokesperson 
for the institute. We keep hearing about this 1905, because it 
was a 99-year lease. Maybe the Forest Service can help with 
this, too. Was there a gate? Were there public facilities? Were 
those all in place in 1909 or have they been added since then?
    Ms. Baliunas. I think I can answer that. The 1905 lease was 
with a private company. No, the gateway facilities were not in 
place. Through a series of bankruptcies and buyouts, a later 
private company ended up with a large parcel surrounding the 
observatory, including the observatory.
    They put in place the public facilities that then were 
deeded in 1976 to the Forest Service. So, the Forest Service 
was left these facilities.
    Ms. McCollum. To the Forest Service, and please forgive me 
if I am asking a question that would seem obvious to you, but 
as I said, this is the first time I have worked on this issue 
here.
    In Minnesota, when I served on the Resources Committee, 
when the State Forest Service System leased land out, when the 
DNR leased land out, the person we leased it to was responsible 
for the maintenance.
    It appears that the Forest System doesn't handle leases in 
that way. Could you tell me, are leases written specific for 
what the agreed-upon areas are and if so, I would very much 
like to see a copy of the lease that we are describing here 
today in the future.
    Mr. Thompson. Well, there obviously are some differences 
between a lot of the kinds of uses that we with the special use 
permits where we have a permit. This is a lease and it is 
different.
    I don't have the specifics, but I would be more than happy 
to provide details of that lease to you.
    Ms. McCollum. I thank you. Well then, I am just going to 
lay a few things out because I know this bill is still in 
progress. I have a concern that we have a lot of, you know, 
``You are responsible for this.'' No, you are not responsible 
for this. You have a leave for this. You are using the land. It 
is available to you yet you expect me to do all the maintenance 
kind of stuff.
    Being a mom, it kind of reminds me sometimes of the sibling 
kind of squabbling about things. That is what it felt like 
reading this. That is what it sounds like today hearing it 
again. So, I think that sometimes you just need to get back 
down to basics. You have to look at what the original agreement 
was, not what people promised each other or thought it has 
evolved to over the past 99 years because the same people still 
aren't here any more. As we proceed forward, whether it be a 
lease agreement or whatever, things need to be spelled out 
clearly who is responsible for what.
    To the Forest Service, I would personally at this time 
think I would lean toward figuring out who is responsible for 
what. This is a value that is given to the institute to be able 
to have the land and maybe work out one of the agreements 
between the institute, Carnegie, and the Forest Service. The 
Forest Service still has the land in a form. But we figure out 
a way to work with the nonprofits to get volunteer groups in 
there to do what needs to be done with the Forest Service 
adding some supplies and some materials.
    Thank you, Mr. Chairman.
    Mr. Peterson. Ms. Baliunas, would you spell out what is in 
the lease currently?
    Ms. Baliunas. The lease is now renewed until the year 2203. 
Specifically on the issue of forest fire abatement, the 1905 
lease says that the lessor and the lessee will share the cost 
of abating forest fire risk on the land. Our 40 acres leased 
from the -- we do take care of the roads going through there. 
The problem is the gateway area, the 60 acres through which one 
has to travel, that is totally Forest Service land and for 
example, they must plow the roads, they must keep those roads 
safe and secure. That has not been done and we have had to do 
that. So, that is not a question of the lease; that is a 
question of the Forest Service responsibility.
    Mr. Peterson. OK. We are going to conclude on this bill. I 
just would like to make one statement. It is my view that this 
property is used for the public good. I mean Mount Wilson 
Institute is a service to all our research universities. It is 
not for the private good. It is for the public good. It is a 
publicly used facility.
    The landowner happens to be the Forest Service. With a $1 
lease for one hundred years, they certainly don't get anything 
back if they are responsible for all the maintenance. I saw it 
as an offer from the institute. Correct me if I am wrong, but 
if you own the land, you can go out to the public and get 
donations that will allow you to keep this in tiptop shape. 
There will be no more arguments.
    The use will not change. It will be exactly like it is. If 
you ever stop using it for what you are using it for, it is 
back to the Forest Service. So nothing changes. I am kind of 
practical. It just seems to make sense to me that if Mount 
Wilson Institute thinks they can raise the money privately and 
keep it in tip top shape and increase visitorship and make it 
more available to the public, that is a win-win.
    Then the Forest Service would no longer have to use its 
very scarce dollars to maintain this property when they don't 
get any cash back from it.
    To me that just seems like a practical thing. If either of 
you would like to comment on that, Mr. Thompson or Ms. 
Baliunas.
    Mr. Thompson. Well, as I said in my testimony, we look 
forward to working with you to resolve some of these issues. We 
have concerns maintaining the existing public use of the 
property. We also are dedicated and committed to working to 
resolve the maintenance issues through partnership, through 
bringing together all the interests and improving the situation 
and the maintenance there no matter what happens.
    So, we are committed to do that. The regional forester is 
committed to do that and we certainly look forward to doing a 
much better job in the years ahead.
    Mr. Peterson. Do you have a concluding comment?
    Ms. Baliunas. We look forward to working with the Forest 
Service to make a sterling relationship here, to really keep 
this property right.
    Mr. Peterson. Mr. Huntress, do you have any closing 
comments?
    Mr. Huntress. I think that in fact if the Forest Service 
and the Mount Wilson Institute can find a way to protect this 
property and make sure that the historic buildings and 
instruments on the top of that mountain are preserved, 
protected and maintained in the public interest, that would be 
in the best interest of everybody.
    Mr. Peterson. I didn't see the gentleman from Arizona come 
back. Mr. Hayworth, you are recognized.
    Mr. Hayworth. Well, Mr. Chairman, wow, maybe the diet is 
working; probably not.
    To the witnesses, good morning. To my colleagues, thank you 
for being here. Thanks to all our panelists.
    Dr. Baliunas, if you could just amplify for the record and 
describe the relationship between Mount Wilson and the Carnegie 
Institute, please, exactly how it works?
    Ms. Baliunas. We have an agreement that says we will 
operate the observatory and there will be no money exchanged 
between Mount Wilson and Carnegie, that is Carnegie will not 
put money into the observatory and we will not have to pay any 
rent or any consideration to Carnegie for that.
    That permanent agreement went into place in 1992, but it 
has been a temporary operating agreement since 1989. We have 
put $62 million into the site.
    Mr. Hayworth. Now, this is something that needs to be 
amplified for people. I understand there may be some 
undercurrents. I don't understand what the implications and 
suggestions or aspersions have been today in terms of this. But 
it seems to me to be a very straightforward process.
    Would you repeat the figure again, the amount of money?
    Ms. Baliunas. Since 1992, when the permanent agreement went 
into place, $62 million of improvements, maintenance and upkeep 
that we have raised from public and private resources have gone 
onto not only the 45-acre parcel of the observatory, but the 
maintenance we have had to do and upkeep on the Forest Service.
    Mr. Hayworth. $62 million. Is there a way to estimate how 
much of that has gone into upkeep that you have talked about 
and that is apparently sorely lacking?
    Ms. Baliunas. We have only done the bare minimum on the 
Forest Service land because we don't have the authority, but 
for the past 6 years, which is all I have tallied so far, it 
has been a quarter of a million dollars.
    Mr. Hayworth. And this legislation, again to reiterate, 
would simply give you the authority to do some of the work that 
has not yet been done. I would hope that we can, in the works 
of my friends from the Forest Service, work this out because I 
think about the time you started this relationship, about 1982, 
a former Democratic member of the New York City Council wrote a 
book entitled, ``The Death of Common Sense.''
    It seems to me imminently reasonable and straightforward 
that when an entity wants to step in with full transparency and 
the authority of Congress statute and the certainty that if the 
nature of the project should change, boom, the relationship is 
severed, it seems to me imminently practical, despite some of 
the suggestions here, that that be allowed, in the full 
transparency of enterprise and good public policy.
    It is interesting that some would try to characterize this 
in other ways. I thank the witnesses. I thank the Chairman.
    Mr. Peterson. We thank the witnesses. We thank the members.
    Mr. Peterson. We will now move on to our next bill and 
recognize Mr. Hayworth for his comments.

 STATEMENT OF J.D. HAYWORTH, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ARIZONA

    Mr. Hayworth. Well, I thank you, Mr. Chairman, for the 
chance to offer testimony today. Mr. Chairman, the Education 
Land Grant Act, nicknamed HELGA, sets up a national mechanism 
to convey small parcels of U.S. Forest Service land to local 
educational agencies for purpose of renovation, expansion or 
construction of school facilities.
    Mr. Chairman, my colleagues and those who join us today, 
you need to understand this. This bill was signed into law on 
December 28, 2000, nearly 18 months ago. Now, after nearly a 
year and a half, implementation procedures are finally being 
completed so that forest supervisors will know how to process 
applications received from school districts.
    It is sad to say, but implementation of this Education Land 
Grant Act by the U.S. Forest Service would be laughable if it 
weren't such a tragedy for so many of our nation's schools. 
Forest Service personnel circumvented the will of Congress in 
so many instances that they may well have been conducting a 
clinic entitled, ``How to administratively kill legislation we 
don't like.''
    Mr. Chairman, perhaps those of us in Congress should call 
it, ``What is wrong with bureaucracy.'' Mr. Chairman, in a 
Resources Committee held last week to investigate the analysis/
paralysis problem at the Forest Service, I outlined some of the 
frustrations I have encountered in simply trying to get the 
Forest Service to implement the law of the land.
    I will not repeat the long run around given to me by Forest 
Service staffers that very nearly sabotaged an Education Land 
Grant Act conference I hosted in Phoenix last year. However, I 
will simply say that the experience demonstrated to me exactly 
what constitutional officers trying to follow the letter of the 
law are up against in terms of bureaucratic inertia.
    Ultimately, in the recent past, though there have been some 
phone calls and signs of promise, it is sadly accurate to 
report the Forest Service have demonstrated extreme reluctance 
to complete the implementation of this law.
    Additionally, Forest Service staff has administratively 
determined that schools that apply for conveyance under this 
Act would need to pay for various administrative costs, 
analysis, and environmental compliance assessments. In fact, 
the interim directive that has now finally been distributed 
states various costs to be borne by school districts, ``nominal 
costs includes the nominal fee of $10 per acre conveyed plus 
all costs directly associated with the project that the Forest 
Service may incur to evaluate and process the school district's 
request to acquire National Forest Service lands under ELGA 
such as costs associated with National Environmental Policy Act 
Compliance, document preparation, surveys, posting of property 
monuments, markers or posts and recordation.''
    Another memo distributed by former Forest Service Deputy 
Chief James Furnish, mentions that even staff time used to 
process requests will need to be paid by the school districts. 
The costs associated with the conveyance under ELGA are truly 
minimal to the Forest Service, a comparative drop in the bucket 
for this agency. Such costs, however, can be absolutely 
prohibitive to school districts seeking to expand their 
facilities, forcing school districts to pay for such costs 
violates both the spirit and the intent of the law.
    Instead of jealously guarding their bureaucratic power, 
perhaps more accurately bureaucratic license -- still in our 
constitutional republic power belongs to the people -- instead 
of jealously guarding their bureaucratic license, the Forest 
Service needs to consider the contribution that ELGA 
conveyances would make to our society, to our school children.
    These school children deserve the best possible education 
and the best possible setting. Unfortunately, it is the reality 
that many school districts cannot afford the cost of acreage 
and a new school facilities.
    I authored the Act. Let me again state this for the record: 
The purpose of HELGA, the purpose of the Education Land Grant 
Act was to he cash-strapped school districts by eliminating the 
expensive costs associated with purchasing lands. Under current 
conditions, this will not become a reality for many school 
districts unless the law is now amended to ensure that scarce 
education funds are not tied up in paying for Forest Service 
bureaucracy and administrative costs.
    We must take action.
    I thank the Chairman for his time and my colleagues for 
their indulgence.
    [The prepared statement of Mr. Hayworth (H.R. 3802) 
follows:]

Statement of The Honorable J.D. Hayworth, a Representative in Congress 
                       from the State of Arizona

    Mr. Chairman, the Education Land Grant Act (HELGA) sets up a 
national mechanism to convey small parcels of U.S. Forest Service land 
to local educational agencies for the purpose of renovation, expansion, 
or construction of school facilities. This bill was signed into law on 
December 28, 2000 (P.L. 106-577), nearly 18 months ago. Now, after 18 
months, implementation procedures are finally being completed, so that 
Forest Supervisors will know how to process applications received from 
school districts.
    In fact, implementation of the Education Land Grant Act by the U.S. 
Forest Service would be laughable if it weren't such a tragedyour 
nation's schools. Forest Service personnel circumvented the will of the 
U.S. Congress in so many instances that they may as well have been 
conducting a clinic entitled ``How to Administratively Kill Legislation 
We Don't Like.'' Perhaps we should call it, ``What is Wrong with 
Bureaucracy.''
    Mr. Chairman, in a Resources Committee hearing held last week to 
investigate the ``Analysis Paralysis'' problem at the U.S. Forest 
Service, I outlined some of the frustrations I have encountered in 
simply trying to get the Forest Service to implement the law of the 
land. I will not repeat the long run-around given me by Forest Service 
staffers that very nearly sabotaged an Education Land Grant Act 
conference I hosted in Phoenix last year. However, I will simply say 
that the experience showed me just what I am up against. Ultimately, 
the Forest Service has shown extreme reluctance to complete the 
implementation of this law. Additionally, Forest Service staff has 
administratively determined that schools that apply for a conveyance 
under this Act would need to pay for various administrative costs, 
analyses, and environmental compliance assessments. In fact, the 
Interim Directive that has now finally been distributed states various 
costs to be borne by school districts:
        ``Nominal costs includes the nominal fee of $10 per acre 
        conveyed, plus all costs directly associated with the project 
        that the Forest Service may incur to evaluate and process a 
        school district's request to acquire National Forest Service 
        lands under ELGA, such as, costs associated with National 
        Environmental Policy Act (NEPA) compliance, document 
        preparation, surveys, posting of property monuments, markers, 
        or posts, and recordation.''
    Another memo, distributed by former Forest Service Deputy Chief 
James Furnish, mentions that even staff time used to process requests 
will need to be paid by school districts.
    The costs associated with a conveyance under ELGA are truly minimal 
to the Forest Service a drop in the bucket for the agency. Such costs, 
however, can be absolutely prohibitive to school districts seeking to 
expand their facilities. Forcing school districts to pay for such costs 
violates the spirit and the intent of the law. Instead of jealously 
guarding their bureaucratic ``power'', the Forest Service needs to 
consider the contribution ELGA conveyances would make to society and to 
our school children.
    These school children deserve the best possible education in the 
best possible setting. Unfortunately, the reality is that many school 
districts cannot afford the costs of acreage and new school facilities. 
The purpose of the Education Land Grant Act was to help cash-strapped 
school districts by eliminating the expensive costs associated with 
purchasing lands. Sadly, this will not become a reality for many school 
districts unless the law is now amended to ensure that scarce education 
funds are not tied up in paying for Forest Service bureaucracy and 
administrative costs.
                                 ______
                                 
    Mr. Peterson. We thank the gentlemen. We recognize Mr. 
Thompson from the Forest Service.

  STATEMENT OF TOM L. THOMPSON, DEPUTY CHIEF, NATIONAL FOREST 
                            SERVICE

    Mr. Thompson. Thank you, Mr. Chairman and members of the 
Subcommittee. I will provide the Administration's comments on 
this bill, H.R. 3802.
    H.R. 3802 amends Section 202 of the Education Land Grant 
Act by requiring the Secretary of Agriculture to pay the costs 
of environmental review for conveyances under ELGA. The 
Department does not object to this bill. However, two points: 
The measure would prohibit a school district from paying the 
cost of environmental reviews if they choose.
    In some situations the exchange process might be delayed 
because the forest may have other funding priorities or funding 
limitations. In those instances, the school district might be 
able to expedite the exchange process by paying the costs of 
the environmental reviews. But I believe the way the 
legislation is drafted, that would not be allowed.
    Also, to meet that requirement the Department would likely 
need to reprogram funding to effectively implement the bill.
    That concludes my statement on the bill. I would be happy 
to answer questions.
    Mr. Peterson. The gentleman from Arizona.
    Mr. Haywood. Again, Mr. Thompson, we thank you for being 
here this morning and thank you for your comments.
    Let's explore the reasoning and the concerns you have. Is 
it possible that in the interaction between local Forest 
Service officials and school districts, that you cite that 
school districts, if we don't delineate the fact that school 
districts could ``fast track'' this by paying these bills, 
doesn't that just put into law, if we were to articulate that, 
yet another excuse for bureaucratic inertia?
    Doesn't that say, well, gee, if you want to move this 
faster, you pony up the jack, you come across with the dough. 
By that purpose we can go ahead and defeat the intent of the 
legislation.
    Mr. Thompson. Let me just say, that is not the intent of 
the comment there. The intent was to at least provide the 
possibility for school districts to do that if they felt like 
that would help expedite it and there was not funding available 
at that point in time.
    Mr. Hayworth. OK. I am sure that is not the intent, but as 
I have seen, an interaction with a sabotage of conferences 
called by constitutional officers, by certain Forest Service 
officials, and again for the record, Mr. Chairman, let me say 
that I think many people work in good faith. I have had 
conversations with the Under Secretary on these matters and I 
understand that people are trying to put good things in place.
    My purpose is, in our hearing today, to shake off the 
tendency that some folks have in some regions to act like 
royalty concerning the forest. In fact, you mentioned something 
else that just again offers what is a challenge and I am not 
going to dispute, especially with the horrific fire, the Rodeo 
fire burning now in what is my Congressional district and the 
possibility of Show Low and Pine Top, Arizona being evacuated 
today, not to mention the other fires we have seen across the 
west and the laudatory the Forest Service does.
    Mr. Thompson, in your testimony you also offered remarks 
that said, and I think this came up last week as well, to the 
effect that with so many duties this falls administratively 
down the list. That can be the rationale for slow action.
    If you have to fund it, well, that drops it on down the 
list, too. Perhaps we should take it under advisement that next 
to fire fighting we should articulate the ability for rural 
school districts to purchase these conveyances of public land 
are the highest and best use of government land. Would that be 
helpful to move this up the priority list in the purview of the 
Forest Service in implementing the law of the land? Should I 
add that language to reflect the intent of Congress?
    Mr. Thompson. Mr. Hayworth, I think the challenge that we 
have in setting priorities for these land issues is simply one 
of making sure that our folks at the ground level are 
responsive and are working very closely with the school 
districts.
    At this point in time we are proceeding with vigor in 
responding to the applications we have. We recognize that there 
will always be a choice of priorities. That is why I did state 
in the testimony that we are going to have to reprogramming 
some of our priorities in looking for ways to fund this. It is 
going to be a consequence, but we look forward to doing that.
    Mr. Hayworth. But again, and I thank you, Mr. Thompson, and 
obviously to the extent that you are there to administer and 
implement what is the law of the land, perhaps food for thought 
today, Mr. Chairman and my colleagues, is to take a look at 
language that would specific that next to fire danger and 
obvious recreation, the highest and best use.
    Perhaps that articulates further and moves this up on the 
hit parade of priorities nationwide. And again, let me clear up 
any misnomer, while this is most dramatic in the rural west, 
our studies indicate 44 of the 50 States can be helped by this 
legislation that should be fully implemented.
    I thank the gentleman for his comments and the Chairman for 
the generous use of the gavel and the time.
    Mr. Peterson. The gentlelady from Minnesota, Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chairman. Just so I understand 
little bit of legislative history and how it impacts the Forest 
Service, sir, this Act was implemented. Was there any funding 
that came with the Education Land Grant Act? In other words, 
you had new responsibilities, was there any appropriation that 
came with the new responsibilities?
    Mr. Thompson. Not that I am aware of.
    Ms. McCollum. Not that you are aware of. So, in other 
words, to implement the Act, you take it out of hide. You take 
it out of current programming that you are already doing. If 
you have to do environmental compliance studies or anything 
else, there is no funding.
    Mr. Thompson. Well, it certainly is a responsibility of 
ours to administer the law and issue the regulations and 
implement it at the ground level. We assume that as our 
responsibility as an agency.
    Ms. McCollum. I understand that, sir, but I am also trying 
to understand. Your responsibility to implement it, I would 
think, would come with our responsibility to fund it in order 
to allow you to do your job.
    The other question I have for you, sir, you have a separate 
line appropriation for forest fires. It appears that there was 
no funding and following this Act enabling you to implement it 
as effectively as it should have been. I don't disagree with 
what the gentleman is saying.
    The people who work for the Forest Service who would be 
responsible for working on the land exchanges, are they the 
same employees that are responsible also for managing and 
watching what is going on, that we have effective fire fighting 
going on right now? Are those the same individuals?
    Mr. Thompson. Well, right now we have about 13,000 people 
that are on fire duty in the United States. That is closely 
approaching what we had in the 2000 fire season. It affects all 
of our people in many different ways, even people who are not 
directly on the fire line are called up for work in different 
ways.
    So, yes, there certainly is an effect of the fire 
situation. For the next 3 months, we are obviously going to be 
putting a tremendous amount of priority on fire. We do have 
lands people, people who would work on this kind of thing, who 
are called out and on fire teams. I hope that answers your 
question.
    Ms. McCollum. Mr. Chairman, I can certainly see the 
gentleman's frustration with not having it done, but I become 
concerned when we ask more and more, whether it be the Forest 
Service or any other group, the Department of Education. We 
talk about unfunded mandates, how we shouldn't have unfunded 
mandates. But I think sometimes we need to sit down and maybe 
reprioritize, as you suggested, or realize and listen seriously 
that there are some needs, especially with the Forest Service 
with what is going on right now with employees being torn both 
ways.
    I would like to learn more about it and find out how we can 
be more effective so that we can accomplish your goal.
    Mr. Hayworth. Would my friend from Minnesota yield?
    Ms. McCollum. I am out of time.
    Mr. Hayworth. Mr. Chairman, could I be recognized?
    Mr. Peterson. The Chair recognizes the gentleman from 
Arizona.
    Mr. Hayworth. Very briefly. I thank my friend from 
Minnesota for her comments.
    Just a couple of notes that I think we need to amplify for 
the record. When the legislation was proposed, before it was 
signed into law, it was deemed to be revenue neutral with 
minimal costs. The costs, sadly for many rural school 
districts, what the Federal Government deems ``minimal'' are 
substantial costs for poor, rural schools.
    Indeed, I would hope that even dealing with the horrific 
fires that we deal with now, that we can evaluate and get the 
help of the Forest Service to serve these rural school children 
in the districts.
    I thank you all.
    Mr. Peterson. I want to thank the members and the 
witnesses. The members of the Subcommittee may have some 
additional questions for the witnesses. We ask you to respond 
to those in writing. The hearing record will be held open for 
10 days for those responses. That includes the previous bill we 
just passed. I failed to read that paragraph for the record.
    Mr. Peterson. Now we introduce our fourth bill, H.R. 4919. 
We are very short on time. We need to be very quick. We have 
two more bills and only a few minutes.
    Mr. Peterson. I recognize the gentleman, Mr. Hayworth.
    Mr. Hayworth. Mr. Chairman, I thank you. I will move 
expeditiously.
    H.R. 4919, the Tonto and Coconino National Forests Land 
Exchange Act authorizes, directs and expedites two land 
exchanges in the Tonto and Coconino National Forests in 
Arizona. The Montezuma Castle, Payson Airport land exchange and 
the Diamond Point Land exchange.
    This legislation authorizes the Forest Service to enter 
into equal value land swaps to acquire a 157-acre parcel of 
private land to enhance and protect the Montezuma Castle 
National Monument as well as a 143-acre open meadow wildlife 
habitat known and Double Cabin Park. Both parcels are in the 
Coconino National Forest.
    In exchange, approximately 221 acres of National Forest 
property adjoining the Town of Payson Municipal Airport would 
be acquired. The property is held by the Montezuma Land 
Exchange Joint Venture, an Arizona partnership of local 
residents formed to promote economic development.
    The Town of Payson has entered into an agreement with the 
Joint Venture folks to purchase a portion of the property to 
create private sector business development and job 
opportunities.
    Members of the Committee and my colleagues, you need to 
know that Payson, Arizona is totally surrounded by National 
Forest lands and that virtually landlocks the entire community. 
Local officials feel the lack of land for industry and low-cost 
housing is the major obstacle to economic development in their 
region.
    The legislation also authorizes the Forest Service to 
acquire a 495-acre parcel known as the Q Ranch which is 
currently owned by the Conservation Fund. In exchange, the 
Diamond Point Summer Homes Association will acquire 108 acres 
of Federal land that has been occupied by the group's 45 
residential cabins since the 1950's.
    The Tonto National Forest plan specifically recommendation 
conveyance of the Federal land. The exchange will transfer land 
of limited public use to the association in exchange for 
private lands that will increase management efficiency and 
enhance public access, use and enjoyment of the surround 
National Forest lands.
    I again reference last week's Resources hearings on 
analysis/paralysis in explaining the need for the exchanges to 
be accomplished by means of legislation. These two exchanges 
have been pending for more than 6 years with no conclusion 
anywhere in sight.
    In fact, Mr. Chairman, you will be interested to know that 
since the Diamond Point Land Exchange began, the administrative 
process on the Tonto National Forest to complete this, four of 
the 45 home owners have died. This is common sense legislation 
that accomplishes goals that even the Forest Service has stated 
are a priority.
    The land exchanges are endorsed by the Gila County Board of 
Supervisors, the Rim County Regional Chamber of Commerce, the 
Town of Payson, the Payson Regional Economic Development 
Corporation and the National Park Service among others.
    I thank you, Mr. Chairman, that completes my statement.
    [The prepared statement of Mr. Hayworth (H.R. 4919) 
follows:]

Statement of The Honorable J.D. Hayworth, a Representative in Congress 
                       from the State of Arizona

    Mr. Chairman, H.R. 4919, the Tonto and Coconino National Forests 
Land Exchange Act authorizes, directs and expedites two land exchanges 
in the Tonto and Coconino National Forests in Arizona: the Montezuma 
Castle/Payson Airport Land Exchange and the Diamond Point Land 
Exchange.
    The legislation authorizes the Forest Service to enter into equal-
value land swaps to acquire a 157-acre parcel of private land to 
enhance and protect the Montezuma Castle National Monument, as well as 
a 143-acre open meadow wildlife habitat known as Double Cabin Park. 
Both parcels are in the Coconino National Forest.
    In exchange, approximately 221 acres of national forest property 
adjoining the Town of Payson municipal airport would be acquired. The 
property is held by the Montezuma Castle Land Exchange Joint Venture 
(MCLEJV), an Arizona partnership of local residents formed to promote 
economic development. The Town of Payson has entered into an agreement 
with MCLEJV to purchase a portion of the property to create private 
sector business development and job opportunities.
    Payson is totally surrounded by national forest lands, virtually 
land-locking the community. Local officials feel that the lack of land 
for industry and low-cost housing is the major obstacle to economic 
development in the region.
    The legislation also authorizes the Forest Service to acquire a 
495-acre parcel known as the Q Ranch, which is currently owned by The 
Conservation Fund. In exchange, the Diamond Point Summer Homes 
Association will acquire 108 acres of Federal land that has been 
occupied by the group's 45 residential cabins since the 1950's.
    The Tonto National Forest Plan specifically recommends conveyance 
of the Federal land. The exchange will transfer land of limited public 
use to the association in exchange for private lands that will increase 
management efficiency and enhance public access, use and enjoyment of 
the surrounding national forest lands.
    I again reference last week's Resources hearing on ``Analysis 
Paralysis'' in explaining the need for these exchanges to be 
accomplished by means of a legislative fix. These two exchanges have 
been pending for more than 6 years, with no conclusion anywhere in 
sight. In fact, Mr. Chairman, you will be interested to know that since 
the Diamond Point land exchange began the administrative process on the 
Tonto National Forest, 4 of the 45 homeowners have died.
    This is common-sense legislation that accomplishes goals that even 
the Forest Service has stated are a priority. These land exchanges are 
endorsed by the Gila County Board of Supervisors, the Rim County 
Regional Chamber of Commerce, the Town of Payson, the Payson Regional 
Economic Development Corporation, and the National Park Service, among 
others.
                                 ______
                                 

  STATEMENT OF TOM L. THOMPSON, DEPUTY CHIEF, NATIONAL FOREST 
                             SYSTEM

    Mr. Thompson. Thank you, Mr. Chairman. Comments on H.R. 
4919. It directs the Secretary to exchange approximately 108 
acres of land within the Tonto National Forest near Payson, 
currently occupied by 45 resident cabins under a special use 
permit for 495 acres of non-Federal land called the Q Ranch 
within the Tonto.
    This exchange is identified in the bill as the Diamond 
Point-Q Ranch land exchange. The bill also directs the 
Secretary to exchange approximately 222 acres of National 
Forest System land adjacent to the town of Payson near the 
airport for approximately 157 acres of private land owned by 
Montezuma Castle Land Exchange adjacent to the Montezuma Castle 
National Monument, and also nearly 143 acres of private land at 
the Double Cabin parklands.
    Both the private parcels are within the Coconino National 
Forest. The bill requires that the values of the non-Federal 
and Federal land be exchanged or equalized as determined by the 
Secretary through an appraisal by a qualified appraiser and 
performed in conformance with the uniform appraisal standards 
for the Federal land acquisitions and Federal land policy and 
management act.
    The bill requires the Secretary to execute the Montezuma 
Castle and Diamond Point land exchanges within 6 months after 
receipt of an offer from the private landowners unless the 
Secretary and private landowners mutually agree to extend the 
deadline.
    The Department supports the concept of exchanging the 
National Forest System lands, which were identified in H.R. 
4919. However, we can meet this objective by utilizing existing 
statutory authorities. In fact, the Diamond Point land exchange 
is currently being evaluated through our administrative 
exchange process and we anticipate completing the environmental 
analysis and making a decision on this proposal in March of 
2003.
    However, passage of legislation certainly could conclude 
this process more quickly.
    We have completed an initial review relative to the 
conveyance of National Forest System lands to Payson, Arizona 
Airport. We believe a competitive exchange process utilizing 
competing market forces would best meet the public interest in 
identifying priority private lands for acquisition.
    Due to the rapidly market variables in this major growth 
area and multiple interest anticipated for this Federal parcel, 
this competitive approach would serve as a more reliable means 
of estimating value of the Federal lands.
    The Forest Service intends to initiate this competitive 
proposal this calendar year and all interested parties will be 
encouraged to participate in the process.
    That concludes my testimony. I would be happy to answer 
questions.
    Mr. Peterson. The gentleman, Mr. Ferguson, you are 
recognized.

   STATEMENT OF JERRELL FERGUSON, DIAMOND POINT SUMMER HOMES 
                          ASSOCIATION

    Mr. Ferguson. Mr. Chairman and members of the Committee, 
thank you for the opportunity to testify. My name is Jerrell 
Ferguson. I am a member of the Diamond Point Summer Homes 
Association.
    In the interest of time, I would like to summarize my 
remarks. I submitted a written statement to the Subcommittee.
    Most of the details you have heard already. What I would 
like to point out is that we have had numerous meetings with 
the Forest Service representatives at all levels. While they 
offer significant vocal support, there really has been almost 
no progress whatsoever. I mean, we started back in 1999 with 
this.
    This exchange is so clearly in the public interest that it 
is really difficult to explain why the Forest Service has been 
really incapable of moving it forward under their 
administrative process.I, as a person, am pretty significantly 
unhappy with it.
    Although I don't represent the private proponents of the 
Montezuma Castle land exchange, I would like to speak on their 
behalf. Like my association, they have been excessively delayed 
in their efforts to complete a straightforward exchange.
    The Payson land exchange was proposed to the Forest Service 
in May 1994. the Forest Service encouraged the Payson four 
investors to buy private lands, but the agency never authorized 
the documents required to initiative an administrative 
exchange.
    After years of frustration, a number of investors sold 
those lands on the private market. Now, with the January 2000 
encouragement of the former Tonto National Forest supervisor, 
the remaining investors spent more money on restructuring the 
proposal.
    The exchange is supported by the Town of Payson, the Gila 
County Board of Supervisors, the Payson Regional Economic 
Development group, the Rim Country Chamber of Commerce and the 
National Park Service. We have evidence of all of that.
    Mr. Chairman, I would be happy to answer any questions. 
Thank you.
    [The prepared statement of Mr. Ferguson (H.R. 4919) 
follows:]

 Statement of Jerrell Ferguson, Diamond Point Summer Homes Association

    Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to testify today. My name is Jerrell 
(``Jim'') Ferguson, and I am a member of the Diamond Point Summer Homes 
Association. Our association has 45 residential cabins currently 
permitted on Federal land within the Tonto National Forest east of 
Payson, Arizona.
Diamond Point Land Exchange
    Over forty years ago, under a program to encourage public use of 
the nation's forests, the U.S. Forest Service permitted our members to 
build cabins on a parcel of National Forest land located near Diamond 
Point. Like other similar ``recreation residences'', the 108-acre 
parcel has no public access and is managed as if in private ownership, 
with a number of roads, driveways, water systems, and other 
improvements associated with the residences.
    The Federal land was identified for disposal in the 1985 Tonto 
National Forest Plan. We began discussing a land exchange with the 
Forest Service in 1999. In November 2000, we proposed an exchange of 
the 495-acre Q Ranch parcel for the Federal land underlying our members 
' cabins. Because the Q Ranch acquisition was of such significant 
public interest, and because the owner of the Ranch had listed it for 
sale on the private market, The Conservation Fund, a national leader in 
land protection, agreed to purchase the property and option it to the 
Association for use in the land exchange. The Forest Service confirmed 
that the Q Ranch was a very high priority for Federal acquisition and 
encouraged us to proceed with the exchange proposal.
    Since that time, we have paid for a land survey and a cultural 
resources inventory of the Federal property. The Conservation Fund 
spent over $2 million dollars of their limited resources on the Q 
Ranch, anticipating the exchange would have been completed by now, and 
thereby releasing their funds for further land protection work. We have 
had numerous meetings with Forest Service representatives at all levels 
and while their vocal support for the transaction remains strong, 
almost no progress has been made in advancing the process. In fact, as 
alluded to by Congressman Hayworth, in the seventeen months since our 
first formal proposal to the Forest Service, four of our members have 
died. Yet the agency has still not executed the non-binding Agreement 
to Initiate the exchange process.
    The Federal land proposed for conveyance to the private sector is 
already treated like private land and was specifically identified in 
the Forest Plan for disposal. The Q Ranch acquisition represents the 
third and final transaction necessary for the United States to acquire 
a major inholding in the Tonto National Forest. The exchange proposal 
has enjoyed broad support and literally no opposition. This exchange is 
so clearly in the public interest, it is difficult to explain why the 
Forest Service has been incapable of moving it forward under the 
administrative process.
Montezuma Castle Land Exchange
    Although I do not represent the private proponents of the Montezuma 
Castle Land Exchange, I am prepared to speak on their behalf. Since the 
mid 1990's, they have been frustrated in their efforts to complete a 
straight-forward exchange with the Forest Service.
    This land exchange was originally proposed to the Forest Service in 
May 1994 and included a number of parcels of non-Federal land in 
exchange Federal land within and around the Town of Payson. The Forest 
Service had encouraged the acquisition of the private lands for the 
exchange, including the Montezuma Castle and Double Cabin Park parcels. 
However, the agency never authorized the documents required to initiate 
an administrative exchange. The local landowners endured years of 
frustration, and significant investment in cultural resources surveys, 
valuation work and NEPA studies.
    With the January 2000 encouragement of the former Tonto National 
Forest Supervisor and the Town of Payson, the participants spent 
additional funds to restructure and reduce the size of the exchange 
proposal. However, with a change in Forest Supervisors, the agency then 
abandoned the exchange, and the local investors were left holding 
millions of dollars worth of land that the Forest Service had 
encouraged them to purchase. The current Montezuma Castle Land Exchange 
proposal involves approximately 222 acres of Federal land needed for 
commercial and residential development within the Town of Payson.
    The land at Montezuma Castle is critical to the Monument's views 
shed, and includes important riparian habitat along Beaver Creek. The 
land at Double Cabin Park includes a vast high meadow and wetlands that 
provide important wildlife habitat. Congressman Hayworth's legislation 
authorizes the Forest Service to transfer all or a portion of the 
Montezuma Castle parcel to the National Park Service if deemed 
appropriate by the Secretaries of Interior and Agriculture. The 
exchange is supported by the Town of Payson, the Gila County Board of 
Supervisors, the Payson Regional Economic Development Group, the Rim 
Country Regional Chamber of Commerce, and the National Park Service.
    Mr. Chairman, that concludes my testimony, with one exception. I 
want to once again personally thank Congressman Hayworth and you for 
holding this hearing and hopefully passing legislation that will ensure 
that highly desirable lands are secured for the public, while the 
interests of private individuals and the Town of Payson are served.
                                 ______
                                 
    Mr. Peterson. Does the gentleman from Arizona have any 
further comments?
    Mr. Hayworth. I have just a quick question. As I pointed 
out, I think it needs to be amplified, this process on the land 
exchange has been going on for 6 years?
    Mr. Ferguson. Well, the Payson Four exchange has been since 
1994. The Forest Service had some problems with it. They said, 
``Well, reduce it and bring it back.'' So, that is what the 
folks did. They reduced it and brought it back. And it is 
hanging out there.
    Mr. Hayworth. Is there a situation when it seems like 
things are working out suddenly personnel are shifted and it is 
kind of like starting all over again?
     Mr. Ferguson. Yeah, well, we have had some changes in the 
supervisors. One of the problems that we have had is that we 
get promises, but we don't get any action. Again, like I said, 
we get good vocal support, but we don't get any action. We get 
told things will get done in 2 weeks and it is 6 months later.
    Mr. Hayworth. What we have found in the political realm is 
that talk is cheap, but action is sometimes rare. I thank the 
gentleman for his testimony. I think it compels us to move 
legislatively.
    Thank you, Mr. Chairman.
    Mr. Peterson. The gentlelady from Minnesota? No comments?
    I want to thank all the members and the witnesses. The 
members of the Subcommittee may have additional questions for 
the witnesses. We ask you to respond to those in writing. The 
hearing record will be open for 10 days for those responses.
    Mr. Peterson. Now, for our last bill, H.R. 4917, a bill 
introduced by Congressman Elton Gallegly.
    Mr. Peterson. Due to a scheduling conflict, Mr. Gallegly 
won't be able to attend today's hearing, but has asked that his 
opening statement be submitted to the record.
    Without objection, it is so ordered
    [The prepared statement of Mr. Elton Gallegly follows:]

Statement of The Honorable Elton Gallegly, a Representative in Congress 
               from the State of California, on H.R. 4917

    Thank you Mr. Chairman. I appreciate this opportunity to testify 
today on H.R. 4917, the Los Padres National Forest Land Exchange Act, a 
bill I introduced to facilitate a land exchange between the U.S. Forest 
Service and the United Water Conservation District, a local government 
agency. Under this legislation, the U.S. Forest Service will convey 420 
acres to United Water. Of that total, 290 acres are mud-flats 
surrounding Lake Piru, 80 acres are campground, and 50 acres are 
primarily two separate sections of Blue Point Road. United Water will 
convey 340 acres to the Forest Service, which includes the western 
parts of Lisk Ranch. The land is open space within the Los Padres 
National Forest previously used for grazing leases. The 340 acres also 
includes the beginning of the Potholes Trail, which runs from the Lisk 
Ranch to the Sespe Wilderness Area.
    This exchange benefits both the Forest Service and United Water. If 
enacted, the Forest Service will own the entire western part of Lisk 
Ranch, which is open space. The Forest Service will also own the entire 
Potholes trail, which begins in Lisk Ranch. United Water has also 
promised, as stated in this bill, to pay for and build a gravel parking 
lot at the Potholes trailhead to facilitate more visitor access to that 
trail. In addition, the Forest Service will no longer have to maintain 
the Blue Point Campground, which has been closed since 1995. The 
campground is two hours away from the nearest ranger station, and the 
Forest Service does not have the resources necessary to keep it open 
and patrol the arroyo toad habitat on that campground. In addition, the 
Forest Service will no longer have to maintain the entire Blue Point 
Road, which runs the length of the lake up through the Blue Point 
Campground. Although the Forest Service testified that they were 
concerned that United Water will be able to regulate vehicular access 
to this road, vehicular access to this road is already strictly 
regulated. As the letter from United Water I am submitting for the 
record states, United Water has already agreed that the public will 
have unrestricted access via foot, horse or bicycle throughout all 
United Water lands. However, vehicular access will not change from the 
current pattern.
    United Water will benefit from this legislation as well. The water 
agency will own all the land that surrounding Lake Piru. This will 
allow for better management of United Water's operations with less 
bureaucracy. In addition, United Water will be able to open the Blue 
Point Campground on a limited basis for a small user fee. United Water 
already runs recreational programs around its property. United Water 
will also be able to patrol and better maintain the Arroyo Toad habitat 
on that campground. The water agency will also own the entire Blue 
Point Road.
    In addition, if these tracts of Federal land around Lake Piru 
become the property of United Water it would own all the land around 
the operation of the Santa Felicia Dam, which they already own and 
operate. It is my understanding that this would remove the Forest 
Service as a principal in the management of the dam, as currently 
allowed under Section 4(e) of the Federal Power Act, and therefore 
remove a bureaucratic layer in the management of the dam.
    The cost of the exchange should be minimal. Since the date of the 
hearing in the Subcommittee on Forests and Forests Health, both United 
Water and the Forest Service have agreed to share the costs of any 
appraisals or land surveys to be done after enactment. Should the land 
to be exchanged by the Forest Service exceed twenty-five percent of the 
value of the land to be given up by United Water, the bill allows 
United Water to pay a cash-equalization payment in excess of the 
twenty-five percent. Any cash equalization payment can be used by the 
Los Padres National Forest for the improvement of recreational or 
administrative facilities. Although the Forest Service testified 
against this language, I hold firm that the maintenance backlog of our 
national forests is paramount to additional land acquisition. However, 
if the Forest Service read my legislation, they would have seen that 
this language provides for an option for funds to go towards 
maintenance. For the record, I am submitting an article highlighting 
the maintenance backlog in the Los Padres, which should make clear the 
need for this language.
    This legislation will have a positive impact on recreational access 
for the public. The majority of the land that the Forest Service is 
exchanging to United Water are mud-flats which are partially covered by 
water from Lake Piru during part of the year. No recreational activity 
occurs on the mud-flats. Blue Point Campground is the only parcel that 
has any recreational value. However, the campground has been closed 
since 1995. After enactment of this bill, United Water will open this 
campground to the public on a limited basis for a small user fee. This 
will have the effect of providing families access to a campground for 
this first time in years.
    All recreational fishing activity and kayaking on Lake Piru will 
still be maintained through United Water's existing recreational 
programs. The land to be exchanged by United Water is currently used 
for cattle leasing activity. However, the last lease has expired and 
all grazing activity has recently ceased. The Potholes Trail runs 
through this property as well. The public already has access to this 
trail.
    This bill will also enhance the protection of the endangered arroyo 
toad. Currently there is arroyo toad habitat in the Blue Point 
Campground. The campground is in a remote location and the nearest 
ranger station is two hours away. For this reason, the Forest Service 
does not have the resources necessary to adequately patrol and protect 
this habitat. United Water is willing to manage this habitat and patrol 
it with much more frequently than the Forest Service. In addition, 
United Water already has experience managing arroyo toad habitat on the 
easterly part of Lisk Ranch, which it already owns. In addition, United 
Water has pledged to work with the U.S. Fish and Wildlife Service to 
draft a biological opinion to manage the arroyo toad habitat on the 
Blue Point Campground. The campground would only be opened during 
periods that will not harm the arroyo toad.
    I believe this exchange is a win-win for the public, the Los Padres 
National Forest and the United Water Conservation District. I 
appreciate this Committee's help in holding this hearing and urge this 
Committee to schedule this measure for a markup soon.
                                 ______
                                 
    Mr. Peterson. Now we will move on to Mr. Thompson's 
comments. You may proceed.

  STATEMENT BY TOM L. THOMPSON, DEPUTY CHIEF, NATIONAL FOREST 
                             SYSTEM

    Mr. Thompson. Mr. Chairman, again, thank you and members of 
the Subcommittee for this opportunity to testify on H.R. 4917.
    H.R. 4917 authorizes the Secretary to exchange 420 acres of 
National Forest System land for approximately 340 acres of 
inholdings in the Los Padres National Forest.
    The United Water Conservation District of California owns 
the inholdings. This exchange would consolidate interior land 
boundaries of the Ojai Ranger District of the Los Padres 
National Forest and would provide UWCD with continuous 
ownership around Lake Piru.
    The bill requires the UWCD to construct a gravel parking 
area upon UWCD lands for the Potholes trailhead of the Los 
Padres National Forest. It also would protect the existing 
Federal Energy Regulatory Commission license for less than a 5-
megawatt generator at the outfall.
    The Department supports H.R. 4917, but we are concerned 
about the control the bill would give to UWCD regarding 
restricting public vehicle access. Any decisions on regulating 
vehicle access should be made in consultation with the Los 
Padres Forest Supervisor.
    Additionally, the bill does not specify whether the Forest 
Service or United Water Conservation District of California 
will pay for the associated cost of the land exchange. We 
believe it is in both parties interest to have the UWCD 
significantly share in the costs of processing this 
transaction.
    Finally, we believe that any receipts from cash 
equalization that are deposited into the Sisk Act Fund should 
be used to acquire replacement lands within the Los Padres 
National Forest instead of being used toward facilities.
    We would again like to thank the Committee for this 
opportunity and we are willing to address any questions.
    Mr. Peterson. Are there any questions?
    No questions forthcoming, I want to thank the gentleman for 
his patience today.
    If there is no further business before the Subcommittee, 
the Chairman again thanks the members of the Subcommittee and 
our witnesses.
    Members do have the right to submit questions for the 
record.
    Mr. Peterson. This meeting is adjourned.
    [Whereupon, at 11:08 a.m., the Subcommittee was adjourned.]


</pre></body></html>
